<html>
<title> - HOMELAND DEFENSE: OLD FORCE STRUCTURES FOR NEW MISSIONS?</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





        HOMELAND DEFENSE: OLD FORCE STRUCTURES FOR NEW MISSIONS?

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                   EMERGING THREATS AND INTERNATIONAL
                               RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 29, 2003

                               __________

                           Serial No. 108-48

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

89-353              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
JOHN SULLIVAN, Oklahoma              C.A. ``DUTCH'' RUPPERSBERGER, 
NATHAN DEAL, Georgia                     Maryland
CANDICE S. MILLER, Michigan          ELEANOR HOLMES NORTON, District of 
TIM MURPHY, Pennsylvania                 Columbia
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN R. CARTER, Texas                CHRIS BELL, Texas
WILLIAM J. JANKLOW, South Dakota                 ------
MARSHA BLACKBURN, Tennessee          BERNARD SANDERS, Vermont 
                                         (Independent)

                       Peter Sirh, Staff Director
                 Melissa Wojciak, Deputy Staff Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
              Philip M. Schiliro, Minority Staff Director

 Subcommittee on National Security, Emerging Threats and International 
                               Relations

                CHRISTOPHER SHAYS, Connecticut, Chairman

MICHAEL R. TURNER, Ohio
DAN BURTON, Indiana                  DENNIS J. KUCINICH, Ohio
STEVEN C. LaTOURETTE, Ohio           TOM LANTOS, California
RON LEWIS, Kentucky                  BERNARD SANDERS, Vermont
TODD RUSSELL PLATTS, Pennsylvania    STEPHEN F. LYNCH, Massachusetts
ADAM H. PUTNAM, Florida              CAROLYN B. MALONEY, New York
EDWARD L. SCHROCK, Virginia          LINDA T. SANCHEZ, California
JOHN J. DUNCAN, Jr., Tennessee       C.A. ``DUTCH'' RUPPERSBERGER, 
TIM MURPHY, Pennsylvania                 Maryland
WILLIAM J. JANKLOW, South Dakota     CHRIS BELL, Texas
                                     JOHN F. TIERNEY, Massachusetts

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
            Lawrence J. Halloran, Staff Director and Counsel
              R. Nicholas Palarino, Senior Policy Advisor
                        Robert A. Briggs, Clerk
                    David Rapallo, Minority Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 29, 2003...................................     1
Statement of:
    Decker, Raymond, Director, Defense Capabilities Managing 
      Team, U.S. General Accounting Office; General Dennis J. 
      Reimer, director, Oklahoma City National Memorial Institute 
      for the Prevention of Terrorism; Dr. James Jay Carafano, 
      senior fellow, Center for Strategic and Budgetary 
      Assessments; and Michael Wermuth, senior policy analyst, 
      Rand Corp..................................................    67
    McHale, Paul, Assistant Secretary of Defense for Homeland 
      Defense; Thomas F. Hall, Assistant Secretary of Defense for 
      Reserve Affairs; and Lieutenant General Edward G. Anderson 
      III, Deputy Commander, U.S. Northern Command and Aerospace 
      Defense Command............................................     5
Letters, statements, etc., submitted for the record by:
    Anderson, Lieutenant General Edward G., III, Deputy 
      Commander, U.S. Northern Command and Aerospace Defense 
      Command, prepared statement of.............................    33
    Carafano, Dr. James Jay, senior fellow, Center for Strategic 
      and Budgetary Assessments, prepared statement of...........   102
    Decker, Raymond, Director, Defense Capabilities Managing 
      Team, U.S. General Accounting Office, prepared statement of    71
    Hall, Thomas F., Assistant Secretary of Defense for Reserve 
      Affairs, prepared statement of.............................    24
    McHale, Paul, Assistant Secretary of Defense for Homeland 
      Defense, prepared statement of.............................     8
    Reimer, General Dennis J., director, Oklahoma City National 
      Memorial Institute for the Prevention of Terrorism, 
      prepared statement of......................................    92
    Ruppersberger, Hon. C.A. Dutch, a Representative in Congress 
      from the State of Maryland, prepared statement of..........    64
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............     3
    Wermuth, Michael, senior policy analyst, Rand Corp., prepared 
      statement of...............................................   114

 
        HOMELAND DEFENSE: OLD FORCE STRUCTURES FOR NEW MISSIONS?

                              ----------                              


                        TUESDAY, APRIL 29, 2003

                  House of Representatives,
Subcommittee on National Security, Emerging Threats 
                       and International Relations,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 1 p.m., in 
room 2247, Rayburn House Office Building, Hon. Christopher 
Shays (chairman of the subcommittee) presiding.
    Present: Representatives Shays, Turner, Murphy, Janklow and 
Ruppersberger.
    Staff present: Lawrence Halloran, staff director and 
counsel; R. Nicholas Palarino, PhD, senior policy advisor; 
Robert A. Briggs, clerk; Mackenzie Eaglen, intern; David 
Rapallo, minority counsel; and Jean Gosa, minority assistant 
clerk.
    Mr. Shays. A quorum being present, the Subcommittee on 
National Security, Emerging Threats and International Relations 
hearing entitled, ``Homeland Defense: Old Force Structures for 
New Missions,'' is called to order.
    We fight abroad to be safe at home. Successful military 
operations in Afghanistan and Iraq demonstrate an unmatched 
capacity and a newfound willingness to confront emerging 
threats where they nest, before they can migrate to our shores. 
But the battle lines in the global war against terrorism reach 
far, from Kabul to Cleveland, from Baghdad to Bridgeport. The 
threat demands a new military posture on the home front as 
well.
    Today we examine efforts to reform and restructure 
Department of Defense [DOD], capabilities to defend the U.S. 
homeland and support civil authorities in the event of 
terrorist attacks.
    The cold war strategic pillar of containment, deterrence, 
reaction and mutually assured destruction crumbled on September 
11, 2001. Since then, we have been building a new security 
paradigm, a strategy that is proactive, preemptive and, when 
necessary, preemptive. Significant strides have been made to 
reshape and refocus military capabilities to meet an uncertain 
world of lethal intentions and unconventional capabilities 
overseas. But at home less has been accomplished to clarify the 
structural, legal and fiscal implications of new military 
operations within the sovereign borders of the States.
    New strategic realities prompted the creation of the 
Northern Command, or NORTHCOM, to unify all DOD homeland 
defense activities under one military authority; and the 
position of Assistant Secretary for Homeland Defense was 
created to coordinate all DOD civil support functions.
    These are important steps toward aligning Pentagon 
management with current missions. But below those top-level 
structures, particularly in the National Guard and Reserve 
units trained in security operations, there has been little 
change in what many view as an accelerating, unsustainable 
tempo of domestic taskings and foreign deployments. Personnel 
and equipment used for homeland defense missions are not 
available for war fighting tasks. Reserve and Guard call-ups 
draw heavily from local first responder ranks, degrading 
domestic readiness.
    This apparent conflict between global security and homeland 
defense responsibilities strains a total force structure 
heavily reliant on seamless integration of Reserve components 
and active duty units.
    The threat of terrorism demands new tactics abroad and new 
modes of military vigilance at home. Missions and skills that 
were scattered in secondary considerations in the cold war 
strategy must now be as manned and ready as global force 
projection packages. To train as they fight, military units 
have to practice on our streets alongside civilian first 
responders. Equipment inoperability standards and communication 
channels have to be established before the next attack is upon 
us.
    So today we ask how military force structures, doctrine and 
training are being transformed to integrate homeland defense 
and civil support missions into a unified, sustainable defense 
posture. Our witnesses all bring impressive experience and 
important insights to our discussion today. We appreciate their 
time, we appreciate their devotion to our country, and we look 
forward to their testimony.
    [The prepared statement of Hon. Christopher Shays follows:]

    [GRAPHIC] [TIFF OMITTED] T9353.001
    
    [GRAPHIC] [TIFF OMITTED] T9353.002
    
    Mr. Shays. At this time, I would like to call on my 
colleague, Mr. Murphy, to see if he has any statement to make.
    I note for the record the vice chairman has come in. So let 
me just call on the witnesses.
    We have two excellent panels. Our first panel is the 
Honorable Paul McHale, Assistant Secretary of Defense for 
Homeland Defense, Department of Defense, former Member of 
Congress, a good friend, and I will say one of the best Members 
of Congress when he served here. So I think that the Department 
of Defense is blessed to have you.
    Mr. McHale. Thank you, sir.
    Mr. Shays. Mr. Thomas F. Hall, Assistant Secretary of 
Defense for Reserve Affairs, Department of Defense; and 
Lieutenant General Edward Anderson III, Deputy Commander, U.S. 
Northern Command and Northern Aerospace Defense Command.
    Gentlemen, as is our custom, we swear our witnesses in, so 
I would ask you to rise.
    [Witnesses sworn.]
    Mr. Shays. I will note for the record that all three of our 
witnesses and an assistant have responded in the affirmative.
    I am going to do our housekeeping part here and ask 
unanimous consent that all members of the subcommittee be 
permitted to place an opening statement in the record and that 
the record remain open for 3 days for that purpose. Without 
objection, so ordered.
    I ask further unanimous consent that all witnesses be 
permitted to include their written statement in the record; and 
without objection, so ordered.
    We will--this is what we do in this committee. We have the 
clock set for 5 minutes. We roll over for another 5, so you 
have technically 10 minutes. We would like you to finish 
somewhere between that 5 and 10. If you get to 10, all hell 
breaks loose.
    Then we would--with the number of Members here, we do 10-
minute questioning. We think that gets at--better getting the 
information we need. So we will just go in the order that I 
introduced you.
    Mr. McHale, welcome; you have the floor.

 STATEMENTS OF PAUL MCHALE, ASSISTANT SECRETARY OF DEFENSE FOR 
   HOMELAND DEFENSE; THOMAS F. HALL, ASSISTANT SECRETARY OF 
 DEFENSE FOR RESERVE AFFAIRS; AND LIEUTENANT GENERAL EDWARD G. 
   ANDERSON III, DEPUTY COMMANDER, U.S. NORTHERN COMMAND AND 
                   AEROSPACE DEFENSE COMMAND

    Mr. McHale. Thank you, sir.
    Good afternoon. I truly am deeply honored to be here; and I 
want to thank you, Mr. Chairman, for your kind words a few 
moments ago.
    As noted, Mr. Chairman, I previously submitted my formal 
statement for the record. Rather than reading that in terms of 
its verbatim text, I will simply submit it for the record.
    If I may, sir, with your consent, I will provide a brief 
opening comment for the record.
    Mr. Shays. Sure.
    Mr. McHale. Mr. Chairman, distinguished members of the 
subcommittee, President Bush has said that the world changed on 
September 11, 2001. We learned that a threat that gathers on 
the other side of the Earth can strike our own cities and kill 
our own citizens. It is an important lesson, one we must never 
forget.
    Oceans no longer protect America from the dangers of this 
world. We are protected by daily vigilance at home, and we will 
be protected by resolute and decisive action against threats 
abroad.
    Secretary Wolfowitz echoed those comments when he said, 
perhaps even more pointedly, ``as terrible as the attacks of 
September the 11th were, we now know that terrorists are 
plotting still more and greater catastrophes. We know they are 
seeking more terrible weapons, chemical, biological and even 
nuclear weapons.''
    Congressman Shays, in your opening remarks you noted that 
we fight abroad to be safe at home, and therefore at the outset 
we should recognize that America's first line of domestic 
defense really begins overseas and results from the 
capabilities of our forward deployed forces. In that sense, 
Secretary Rumsfeld has correctly noted that the annual homeland 
defense budget of the Department is $380 billion.
    After September 11, it was recognized that in order to 
ensure the security of the American people it was necessary to 
create a new geographic combatant command with the specific 
assigned mission of defending the United States, our citizens, 
our territory and our freedoms.
    The mission of NORTHCOM is, ``United States Northern 
Command conducts operations to deter, prevent and defeat 
threats and aggression aimed at the United States, its 
territories and interests within the assigned areas of 
responsibility; as directed by the President or Secretary of 
Defense provides military assistance to civil authorities, 
including consequence management operations.''
    NORTHCOM therefore has a mission statement that can be 
separated into two parts. Preceding the semicolon, the mission 
statement is one of war fighting. That is to physically defend 
the United States of America.
    The second part of the mission statement relates to civil 
support; and that is, under extraordinary circumstances, when 
the Department of Defense has a unique capability or civilian 
officials are overwhelmed by the task at hand, to provide to 
those civilian agencies, both State and Federal, with the lead 
civilian agency establishing the goals and the military 
providing the support to assist those civilian agencies in 
addressing the mission at hand.
    NORTHCOM's force structure is unique among the combatant 
commands. Very few forces are permanently assigned, although 
appropriate units have been identified for possible mission 
employment.
    NORTHCOM's Commander is Air Force General Ed Eberhardt. He 
is located with his command at headquarters Peterson Air Force 
Base.
    The Assistant Secretary of Defense for Homeland Defense is 
a position that was newly created by the National Defense 
Authorization Act of 2003. I was privileged to be nominated for 
that position and 3 months ago confirmed by the U.S. Senate.
    During the intervening period of time, I have had the 
opportunity to visit virtually every major homeland defense 
command within the United States. This is an extraordinary 
responsibility. I am the first to fill it. The decisions that 
we make I have no doubt will affect the nature of our homeland 
defense for many decades to come.
    We have, as one of our most important tasks, the 
responsibility to establish an effective working relationship 
with the newly created Department of Homeland Security. That 
relationship will involve close coordination, joint training 
and exercises. The Department of Defense and the Department of 
Homeland Security have complementary missions and capabilities. 
We certainly welcome the new Cabinet department as a full 
partner.
    As we meet here today, a representative from my office, on 
behalf of the Department of Defense, is embedded within the 
operations center of the Department of Homeland Security. The 
cooperation that we are establishing is close and lasting.
    The Department of Defense provides support to civilian 
agencies basically under two circumstances: when we have a 
unique capability such as with regard to weapons of mass 
destruction and the response that we might be compelled to 
provide in the event of a terrorist attack that would employ 
that kind of capability, and when civilian authorities are 
overwhelmed by the magnitude of the task at hand.
    Finally, Mr. Chairman, let me close with a brief reference 
to the role of the National Guard. The National Guard is a 
balanced force. Historically, the National Guard has been 
dedicated primarily to overseas warfighting missions in terms 
of their Title 10 responsibilities. In short, the National 
Guard has been a very substantial portion of our Nation's 
strategic reserve.
    We anticipate that in the years ahead that mission, that 
overseas warfighting mission, will be retained. But that it 
will be enhanced by additional homeland defense missions. Those 
missions may well be accomplished in State status, to 
potentially in Title 32 status which is when the National Guard 
is under the command and control of the Governor but the 
expenses are paid by the Department of Defense, or in their 
full Title 10 role. They provide geographic dispersion, a rapid 
response capability, an ability to defend critical 
infrastructure throughout our Nation, and of course they have 
been deeply involved in the establishment and the mission 
effectiveness of the civil support teams, 32 of which defend 
our Nation today.
    Abraham Lincoln said, as our cause is new, so must we think 
and act anew. The President was right. The world changed on 
September 11. The Department of Defense is, for that reason, 
transforming its capabilities so that we will have effective 
responses to any conceivable attack, first to defeat it, and 
then if necessary to remediate it.
    Mr. Chairman and Members, I can assure you that today, as 
always, America's men and women in uniform stand ready to 
defend our Nation against any threat at home or abroad.
    Thank you.
    Mr. Turner [presiding]. Thank you.
    [The prepared statement of Mr. McHale follows:]

    [GRAPHIC] [TIFF OMITTED] T9353.003
    
    [GRAPHIC] [TIFF OMITTED] T9353.004
    
    [GRAPHIC] [TIFF OMITTED] T9353.005
    
    [GRAPHIC] [TIFF OMITTED] T9353.006
    
    [GRAPHIC] [TIFF OMITTED] T9353.007
    
    [GRAPHIC] [TIFF OMITTED] T9353.008
    
    [GRAPHIC] [TIFF OMITTED] T9353.009
    
    [GRAPHIC] [TIFF OMITTED] T9353.010
    
    [GRAPHIC] [TIFF OMITTED] T9353.011
    
    [GRAPHIC] [TIFF OMITTED] T9353.012
    
    [GRAPHIC] [TIFF OMITTED] T9353.013
    
    [GRAPHIC] [TIFF OMITTED] T9353.014
    
    [GRAPHIC] [TIFF OMITTED] T9353.015
    
    [GRAPHIC] [TIFF OMITTED] T9353.016
    
    Mr. Turner. Mr. Hall.
    Mr. Hall. Chairman and distinguished Members, before I 
start my statement, I would like to enter my written one in the 
record.
    As a career Naval officer, it is great to be flanked by the 
Marine Corps and the Army today at the table. I am delighted to 
be here today to report on the progress in integrating the 
Reserve components into the Department's overall homeland 
defense mission area.
    Defense of the homeland is a total force mission, with 
important roles for both the Active and Reserve components. In 
addressing this mission, the Department must balance 
requirements for homeland security with traditional warfighting 
requirements. To make the best use of our military 
capabilities, Reserve component forces are dual mission, for 
both wartime and domestic support missions.
    I am pleased to report that, as of March 14, all 32 of our 
weapons of mass destruction civil support teams have been 
certified as fully mission capable. As you know, these teams 
were established to deploy rapidly, to assist local incident 
commanders in determining the nature and extent of an incident 
involving weapons of mass destruction. These teams will provide 
expert technical advance on WMD response operations and will 
help identify and support the arrival of follow-on State 
response assets. Each team consists of 22 highly skilled, full-
time members of the Army and Air National Guard.
    We are making significant progress in other areas. For 
example, the Army Reserve has trained and equipped 28 chemical 
decontamination and recon elements to act in a civil support 
role. We will continue to leverage the wartime capabilities of 
our Reserve component forces for domestic missions in support 
of the lead Federal agency.
    Above all, we must ensure that our domestic civil support 
forces, particularly those in the Guard and Reserve, are 
readily accessible, properly trained and equipped to perform 
this critical mission for our citizens and interoperable within 
the Nation's first responder community.
    Our goal is to support America's fire, police, and 
emergency medical personnel as rapidly as possible with 
capabilities and tools that complement and enhance their 
response, not duplicate it.
    Today, as I left the Pentagon, we have over 223,000 
National Guard and Reserve men and women supporting our 
operations--Northern Eagle, Enduring Freedom and Iraqi Freedom. 
They are flying air CAPs, performing force protection duties 
here in the United States, flying refueling missions over 
Central Asia and are on the ground in both Iraq and 
Afghanistan.
    In addition, the response to Secretary Ridge's request to 
the Governors to support Operation Liberty Shield, over 2,700 
Army and Air National Guardsmen were activated under State 
control to protect critical assets of national significance in 
their areas.
    On little or no notice, America's National Guard and 
Reserve have been ready to roll. To this day, their enthusiasm 
for the global war on terrorism remains high. They are in it 
for the long haul. The bottom line is they are committed and 
capable warriors in this
war on terrorism, and you should be justifiably proud of them. 
I know I am.
    That concludes my opening statement. Thank you.
    Mr. Turner. Thank you.
    [The prepared statement of Mr. Hall follows:]

    [GRAPHIC] [TIFF OMITTED] T9353.017
    
    [GRAPHIC] [TIFF OMITTED] T9353.018
    
    [GRAPHIC] [TIFF OMITTED] T9353.019
    
    [GRAPHIC] [TIFF OMITTED] T9353.020
    
    [GRAPHIC] [TIFF OMITTED] T9353.021
    
    [GRAPHIC] [TIFF OMITTED] T9353.022
    
    [GRAPHIC] [TIFF OMITTED] T9353.023
    
    Mr. Turner. Mr. Anderson, General.
    General Anderson. On behalf of General Eberhart, Commander 
of North American Aerospace Defense Command and Commander of 
the U.S. Northern Command, we thank you for this opportunity to 
represent the outstanding young men and women of NORAD and 
USNORTHCOM and to tell you about our efforts to protect and 
defend our homeland.
    I, too, would like to thank you for the opportunity to 
provide a written statement for the record.
    While I will devote the majority of my remarks to the U.S. 
Northern Command, before I do I would like to take a moment to 
just a say a few words about NORAD.
    NORAD has proved to be a resilient organization that has 
adapted to counter ever-changing threats over the past 45 
years. One of the factors contributing to the success has been 
our relationship with the Canadian armed forces, which today 
has never been stronger. For Operation Noble Eagle, together we 
have flown over 29,000 sorties without incident. This includes 
fighters as well as airborne early warning and tanker aircraft. 
With the Air Guard and Reserves flying over 75 percent of our 
fighter and tanker sorties, we simply could not complete our 
mission without the men and women of the Reserve component. 
NORAD remains ready to defend against any aerospace threat.
    USNORTHCOM is a product of transformation. Everything about 
us, from our mission, to our organization, to the way we have 
members of the National Guard and Coast Guard on our staff, 
reflects the way that the Department of Defense is moving 
toward countering the threats of the 21st century.
    Our missions are homeland defense and military assistance 
to civil authorities. While these missions are not new, placing 
them under a single command to ensure unity of command and 
unity of effort with a unity of purpose is new.
    USNORTHCOM is a U.S. unified combatant command. We have all 
of the responsibilities and authorities of other combatant 
commands when it comes to national defense and protecting the 
interests of the United States and her allies in our area of 
responsibility.
    However, one thing that makes us different from other 
combatant commands is that our homeland is in our area of 
responsibility. For the first time since George Washington and 
the Continental Army, the United States has a military command 
that focuses solely on homeland defense in support to homeland 
security, USNORTHCOM.
    Although we are a small command with very few permanently 
assigned forces, we are confident we can get the forces we need 
to do our mission. We have combatant command authority over a 
standing joint force headquarters with two operational joint 
task forces, one to support counterdrug activities and the 
other to support civil authorities for weapons of mass 
destruction consequence management. However, through well-
established procedures, we can quickly draw upon the total 
force to expand our assigned forces to respond to any 
contingency within our assigned area of responsibility.
    Since our stand-up on October 1, 2002, we have developed 
operational plans, exercised our capabilities with over 50 
government agencies, and provided real-world assistance to lead 
Federal agencies. We have supported the President's attendance 
at the Asian Pacific Economic Cooperation Conference, the D.C. 
sniper investigation, the State of the Union Address, and the 
Shuttle Columbia recovery operations as well as Operation Noble 
Eagle.
    As we advance toward full operational capability we will 
continue to exercise with first responders, our National Guard 
and Reserve forces, and government agencies to ensure our 
Nation is ready to respond to any and all threats.
    We understand full operational capability is a moving 
target. We know the threat and our mission will evolve over 
time, and we will never be satisfied. We will always look for 
ways to be better prepared to protect our homeland.
    We believe a key to homeland defense is actionable 
intelligence. We want to work the front end of this problem. We 
are sharing intelligence and information with a variety of 
organizations to include local, State and Federal law 
enforcement organizations. A lot of this is open intelligence 
and information that we get from the Internet and other sources 
as part of our red teaming efforts. Our challenge is to fuse 
this information, as the Secretary of Defense says, to connect 
the dots into a threat picture upon which we can act.
    Our Combined Intelligence and Fusion Center is doing just 
that. They are collating and analyzing data from many different 
government agencies and the intelligence community to attempt 
to provide us clear situational awareness on the threat so that 
we can deter, prevent and defeat attacks against our Nation.
    We are grateful for all Congress has done to support us in 
this effort. With your continued help, our homeland will be 
safer tomorrow than it is today.
    As the Secretary says, this is important business. There is 
no more important mission than protecting the American people 
where they live and work. I can assure you that the men and 
women in USNORTHCOM are dedicated to accomplishing that very 
important and critical mission. Thank you for your commitment 
to a strong defense, and I look forward to your questions.
    [The prepared statement of General Anderson follows:]

    [GRAPHIC] [TIFF OMITTED] T9353.024
    
    [GRAPHIC] [TIFF OMITTED] T9353.025
    
    [GRAPHIC] [TIFF OMITTED] T9353.026
    
    [GRAPHIC] [TIFF OMITTED] T9353.027
    
    [GRAPHIC] [TIFF OMITTED] T9353.028
    
    [GRAPHIC] [TIFF OMITTED] T9353.029
    
    [GRAPHIC] [TIFF OMITTED] T9353.030
    
    [GRAPHIC] [TIFF OMITTED] T9353.031
    
    [GRAPHIC] [TIFF OMITTED] T9353.032
    
    [GRAPHIC] [TIFF OMITTED] T9353.033
    
    [GRAPHIC] [TIFF OMITTED] T9353.034
    
    Mr. Turner. I want to thank each of our panelists and also 
acknowledge that Mr. Janklow and Mr. Ruppersberger have joined 
us. We will go then to a 5-minute round of questions. We will 
begin with our Chairman, Mr. Shays.
    Mr. Shays. Thank you very much, Mr. Chairman.
    I would like to just start out by trying to visualize 
USNORTHCOM. When I think of the other commands, it is easy for 
me to envision, obviously, special forces. It is easy for me to 
envision a heavy armament. It is easy for me to visualize the 
use of our Air Force and so on.
    How is USNORTHCOM different? I mean, I kind of--in my own 
mind, am I to visualize military--our Army fighting alongside 
policemen? I mean, that is kind of where I am trying to set the 
stage for me here; and maybe, Lieutenant General, you could 
start us out.
    General Anderson. OK, sir.
    Sir, there are two distinct differences in our command as 
you look at the other combatants. One, as we mentioned earlier, 
is the area of responsibility; and specifically the difference 
there, of course, is the fact that our homeland is here. Now 
that sounds kind of superficial, but in fact it is fairly 
significant. An example of that is, when we talk about 
intelligence, one of the things that we need in terms of 
providing situational awareness is the ability to fuse 
intelligence and law enforcement information; and then, once we 
are able to fuse that, then it is the dissemination of that to 
a wide spectrum of users that consist of folks from first 
responders all of the way up to the President.
    So that is one of the unique things that comes with having 
the homeland in your area of responsibility.
    But another area that is different for us in comparison 
with our other combatant commanders is the fact that, as 
Secretary McHale pointed out in his opening remarks, we have as 
a mission military assistance to civil authorities, what we 
refer to as MACA, that no other command has within its mission 
statement. The implications of that extend quite a bit, but one 
of the key pieces to it, as you might expect, is the fact that 
then necessitates that we must work very, very closely with a 
number of folks in the interagency, whether they be other 
government agencies or nongovernment organizations, folks that 
we, probably, in the military have never had the opportunity to 
work with before, and vice versa.
    Mr. Shays. Given that I only have 5 minutes this first 
round, and given the number of Members here, but--let me--maybe 
we are still sorting this out. I don't quite visualize how this 
process works in practice. For instance, it is unlikely that 
you would see a large number of people assault a community. 
They would be much smaller, it strikes me.
    But are we going to have our military personnel train side-
by-side with first responders and say we will work with the New 
York Police Department and determine how we coordinate 
activities? Will we train with them and so on? Maybe I could 
come to Secretary McHale as well on that issue. But maybe you 
could first respond.
    General Anderson. OK. Yes.
    The answer to your question is, yes, we will; and we do 
that through exercises. As we go through a variety of different 
scenarios that we may have, it includes local first responders 
from all of the way down from the police and fire all of the 
way up to include the National Guard and those kind of folks. 
It is necessary. We feel as though we have to do that.
    But we will be--our forces will be provided in response to 
a request from a lead Federal agency. We will always, in the 
context of military assistance to civil authorities, will 
always be supporting a lead Federal agency.
    And I will offer Secretary McHale a few moments.
    Mr. McHale. Thank you, General.
    Mr. Chairman, basically, USNORTHCOM's mission is divided 
into two component parts. First and foremost, General Eberhart 
is a warfighter. With regard to the physical defense of the 
United States of America, his protection of the U.S. air space 
and his defense against enemy threats within the maritime 
approaches to the United States is a mission that is comparable 
to any other combatant commander. He will fight in the air to 
protect us. He will defend against enemy threats on the high 
seas as those threats approach the coast of the United States.
    As General Anderson indicated, because the NORTHCOM AOR 
includes within its geographic area the Constitutional 
framework of the civil government of the United States, it is 
really on land that the distinction is drawn between this 
combatant command and all other combatant commands. We have a 
Constitution. We have a representative republic. We have 
civilian institutions of government that make us the kind of 
country that we want to be, as opposed to a country in which 
the military would be disproportionately influential. We have a 
government based on civilian supremacy, and that does come into 
play in terms of the constraints on the land activity of 
NORTHCOM.
    In addition, we have made a policy decision as a Nation 
that our border protection on land will be a civilian function, 
not a military function. Now we provide military assistance to 
civilian authorities as they defend our borders on land, but 
the protection of those land borders is not fundamentally a 
military mission.
    As indicated by the General, we provide civil support to a 
lead Federal agency when a request is made. I know that we have 
at least one member of this committee who is a former Governor. 
If there is a disaster, the Governor in a given State can ask 
the President under the Stafford Act to declare a disaster or 
an emergency. If that declaration is made, the Department of 
Defense may then be instructed by the President and upon order 
of the Secretary of Defense will deploy military forces to 
support a lead Federal agency, typically the Federal Emergency 
Management Agency, now under the Department of Homeland 
Security.
    So, basically, when it comes to NORTHCOM, we will protect 
our Nation in the air and on the seas just like any other 
combatant command. But subject to posse comitatus and the 
process that is described in the Stafford Act, our activity in 
terms of civil support is a supporting role on behalf of a lead 
Federal civilian agency.
    Mr. Shays. Thank you, Mr. Chairman.
    Mr. Turner. Thank you.
    Mr. Ruppersberger.
    Mr. Ruppersberger. First, Mr. Hall, the issue of the 
Reservists, as far as their pay, the gap between their military 
salary and civilian. In the past, it really hasn't been as much 
of a problem, because there haven't been the call-ups that you 
have right now. I would think down the road that is going to 
create an issue of lack of recruitment if somehow it isn't 
dealt with. Of course, cost is an issue, and we have to deal 
with the issue of cost, and we understand that.
    Do you think that the recent shift in the activation policy 
with more reliance on Reservists will affect the recruiting and 
morale of where we are now; and, if so, what would you 
recommend that we do?
    Mr. Hall. Let me address the first part of the pay and then 
the second on the recruiting and retention very quickly.
    We have been concerned about it, and we have taken a hard 
look at the pay issue. We have done two surveys. We have gone 
twice, in 2000 and 2002, asked the families: Have you suffered 
a pay loss because of being mobilized? In fact, about 30 
percent have. It has been a small amount. You read many of the 
cases where it might be a high-earning person, but the other 70 
percent, in fact, have held even, and about one-third of them 
almost in some cases doubled their pay.
    So it is a smaller amount. We are concerned about that. We 
are doing a pay and compensation study that we are going to 
complete in August. We are looking at that as one of the many 
issues. But right now we have not seen that as a large problem.
    On the second part, I don't think we know. After the Gulf 
war, for about 2 or 3 years--at that time I was in command of 
the Naval Reserve. We looked at it. We had a dip in recruiting 
and retention. After about 3 to 4 years it came back. And I 
think the essential issue on recruiting and retention is going 
to be if we are mobilizing the same kinds of Reservists year 
after year.
    Just sort of in closing, if you were in the Guard and 
Reserve over the past 13 years, we have had eight 
mobilizations. What was your opportunity to be mobilized once? 
It was about 56 percent. How about mobilized twice? It is about 
4 percent. How about three times? About 1 percent.
    But if you are in a specialty like civil affairs, mortuary 
affairs, force protection and those, you might have been 
mobilized much more than that. So I think we are going to have 
problems with employers and the Guardsmen and Reservists if we 
continue to mobilize the same group of people. So we have to 
look at how we are going to restructure that.
    Mr. Ruppersberger. I am not sure if I agree with your first 
answer, just based on my district and the complaints that I 
receive. Normally, State and local governments are making up 
the gap a lot of times, because you have police officers 
involved in the military police, or firefighters, but there are 
a lot that maybe work for smaller businesses. I think it is 
something--I know Congressman Lantos from California has a bill 
in to address this issue. But I am--I know the issue is cost, 
and you have to look at that.
    Mr. Hall. We are looking at that bill and will comment on 
that.
    Mr. Ruppersberger. I know you have a Governor and a mayor--
and I was a county executive--on this committee right now. The 
issue of cooperation between Federal, State and local--before I 
ask the question, I think that, from my experience in 
government and that we have had probably the best cooperation 
between Federal, State and local and military not only with 
respect to the war itself but also with intelligence--the 
cooperation has been unprecedented. I think that is one reason 
why we haven't had another September 11 incident on our shores.
    But that doesn't mean that--the interdiction is one of the 
most important issues. I am still concerned a little bit about 
the cooperation and the ability between, let's say, NORTHCOM 
and then a Governor. That is easy for a Governor. You have a 
big snowstorm, you can bring--the Governor declares an 
emergency, you can deal with some issues.
    But you have more with homeland security than meets the 
eye, I guess; and the cooperation is what is going to make a 
difference. A lot of leads--there is a lot of leads that might 
even be relevant because of an intelligence point of view, with 
NORTHCOM can come from local government, leads can come from 
the street. And where do you see the cooperation between those 
State, Federal and local and then----
    First, where do you see that cooperation, and then in the 
event that something happens, how long will it take to 
implement some action when something occurs?
    Mr. McHale. That is a very complex question and an 
important one.
    Mr. Ruppersberger. That is why I asked it.
    Mr. McHale. Let me just create a brief scenario how we 
would envision forces and military and civilian responding to a 
given event.
    I, too, come out of local government. First job I ever had 
was on the planning commission back in my hometown borough 
before I ever ended up here in the Congress of the United 
States. If there is a terrorist attack, my expectation is that 
the very first responders will likely be volunteers out of our 
hometown communities--the volunteer firemen, the EMTs, the 
paramedics, perhaps part time police officers in small 
communities, perhaps professionals in larger communities. But 
these civilians at the local level will be the ones who provide 
the immediate response. If it becomes clear that we have, let's 
say, a terrorist attack involving a weapon of mass destruction, 
I think it is likely at that point that the Governor will ask 
for the assistance of the National Guard, probably in State 
status, so you will have guardsmen flowing into that area as 
well.
    If it does involve a chemical, biological or even 
radiological contaminant, it is likely that the civil support 
teams, the one in that State would likely be deployed to do an 
assessment of the nature of the contaminant.
    Now I have described civilian capabilities at the local and 
State level. I will envision that the State emergency 
management personnel in that jurisdiction would also respond. 
You are going to go through a lot of layers of civilian and 
military personnel in State status before you get to the 
Department of Defense.
    At that point, if the civilians are overwhelmed or if in 
fact the Guard in State status alone cannot handle the mission 
at hand, it is likely a disaster would be declared by the 
President and likely that the Secretary of Defense, in that 
extraordinary circumstance, would order DOD forces to respond.
    That means that we would have civilians and military, 
local, State and Federal operating within the same area of 
responsibility. Coordination is absolutely essential, and one 
of our goals within the Office of the Assistant Secretary of 
Defense for Homeland Defense is to rigorously exercise, in a 
scenario-based setting, as we are doing, for instance, in 
Exercise Determined Promise in Clark County, Las Vegas, Nevada, 
in August, the colocation, communication and coordination of 
all of those capabilities.
    Right now, for contingency planning, action officers within 
the Department of Defense communicate routinely, often daily, 
with civilian counterparts, including those at the Department 
of Homeland Security, to make sure that all of those pieces of 
the response, in as realistic peacetime training as we can 
have, prepare for an actual operational deployment if a 
terrorist attack would occur.
    Mr. Ruppersberger. The concern, though, in the event there 
is an event--you answered it as far as civilians getting 
involved, and they need help right away, having to go through 
the Governor at all times. When a local mayor or local county 
executive needs that help because they are the first 
responders, that is what I am really focusing on.
    My time is up, so I can't ask any more questions, but you 
can answer.
    Mr. Turner. Mr. Murphy.
    Mr. Murphy. Thank you, Mr. Chairman.
    With regard to the new role, being called upon for 
Reservists or really other bases scattered around the country, 
I represent an area in the Pittsburgh area where we have an air 
refueling wing, we have an Army Reserve base, we have an Air 
Guard area. Looking at some of these groups that will be 
employed in some homeland defense readiness in any place in the 
country, what input are you going to be having on some things 
as the BRAC decisions to close some bases, or are you looking 
at some input on what is needed around the country so you can 
put information on that?
    Mr. Hall. I can talk on the Guard and Reserve. I went 
through BRAC 1991, 1993 and 1995 as Chief of Naval Reserve. It 
is absolutely critical with regard to the Guard and Reserve 
that they be considered in the BRAC process.
    So when this one started out of my office, I asked that 
representatives be on each and every team, so that when we look 
at bases, both active and Reserve, around the country we think 
about the demographics of Guard members and Reservists who live 
there, and if we close a facility that is an active facility 
for which you might have Reserve personnel aboard, what is the 
effect of that.
    So what I can tell you is we are members, part and parcel 
of all of teams looking at that, based on my experience.
    Mr. Murphy. So even going with the NORTHCOM, you will be 
looking at that and having some input on that as well, of what 
you need to have in certain regions of the country as well?
    Mr. Hall. Yes. And I would turn to my colleagues for that. 
But within the Guard and Reserve context, yes.
    Mr. Murphy. Agreed?
    Mr. McHale. Yes, sir.
    The nature of warfare has changed. I think it is very 
clear, and certainly the Secretary of Defense has correctly 
stated on any number of occasions, we have excess 
infrastructure within the Department of Defense and that the 
resources we put into the maintenance of that infrastructure 
has a negative effect on our warfighting capabilities and 
Defense's capabilities, including homeland defense. We now 
recognize that the nature of warfare has changed. And so the 
fundamental principle remains true, that is, we have to 
decrease the amount of infrastructure we currently possess, 
because it is more than we need.
    In light of the global war on terrorism and the homeland 
defense requirements that have emerged since September 11th, 
2001, we have to choose wisely in terms of which portions of 
that infrastructure should be privatized, which portions we 
should retain. Clearly, the homeland defense mission is 
seriously considered when we look at that infrastructure and 
determine what to let go and what to keep.
    Mr. Murphy. Let me give you a scenario, General. Let's say 
there is word that a train has been commandeered by unknown 
elements. We believe it is hijacked by some unfriendlies and 
they are in a rural area headed toward a city at a high speed, 
has several cars on that train that may have various gases 
which can be poisonous if they erupt into a populated area. 
Walk me through in terms of what happens from the local police 
up to where you might be involved in this and noting that it 
might only be about 15 minutes to half an hour to take action.
    General Anderson. Well, sir, as you correctly point out, 
the local responders will be the ones who will be first 
informed of this; and, to be perfectly honest with you, our 
first information may come to us over CNN or some such means as 
that. But as soon as we see that happen and happening, the 
first thing we are going to do is call the TAG in your State 
and say, what is going on and what is it that--support that you 
may need?
    At the same time, we will be alerting our Joint Task Force 
Civil Support that there is the possibility of this kind of an 
event that is going to occur, which may require WMD consequence 
management's assistance and the expertise that we have there, 
if requested, though.
    Mr. Murphy. Let's go through this request, because there 
may not be a lot of time. Let's say options are derailing this 
train, stopping the engine through other manners, which local 
police and firemen don't have the opportunity to do. Would you 
see yourself in some situation where you have to start taking 
some action or be ready--helicopters in the air, I don't know 
what that might be--or will it be set up that you have to 
follow this chain each time, because you will have only 
minutes?
    Mr. Hall. There is an exception that does not require 
verbal approval from the Secretary of Defense, and that is an 
immediate response action by a local commander. So if there is 
a local base in the area or something such as that, he or she, 
they do have the authority to be able to respond. If life or 
limb is at risk or the safety of DOD or there is a large 
calamity that is going to occur, they can respond immediately 
under the conditions that are laid out to provide some level of 
support now. Whether or not it would be a helicopter to shoot 
at a train or something like that more than likely would not 
fall into that category.
    Mr. Murphy. I think that is essential, that, as you know, 
that part of dealing with hijackers is making sure they may not 
meet their target and their involvement in secrecy, not letting 
people know. It is important to know that you have enough 
options in your tool belt that can you take action to be 
preemptive when needed to or be prepared to defend at that 
particular moment.
    Mr. McHale. Congressman, what you are describing is a 
domestic counterterrorism responsibility, where the local 
police are unable to defeat the threat as it is emerging.
    This goes back to the comments that I made to Congressman 
Shays a little bit earlier. Because NORTHCOM's land 
responsibility is colocated with the civilian government of the 
United States of America, the policy decision under the 
Constitution has been made that the responsibility to defeat 
that threat will rest primarily on the shoulders of a lead 
Federal law enforcement agency.
    If the local police cannot deal with that train, it will 
become clear pretty quickly; and at that point the FBI, not the 
Department of Defense, will take on the domestic 
counterterrorism role of physically interdicting and defeating 
that threat. Consistent with our Constitutional form of 
government and the Posse Comitatus Act, we can provide 
assistance to the FBI.
    But, as you speak today, looking for an assurance that an 
enemy threat will be defeated under that circumstance, the lead 
in that effort will be taken by the FBI. And I can tell you, 
just from personal awareness, the FBI's exceptional 
capabilities--the FBI does train to that mission and does have 
a rapid response capability that we would support, but they 
would lead.
    Mr. Murphy. Thank you, Mr. Chairman.
    Mr. Turner. Mr. McHale, looking at your written statement, 
on page 10 you talk about six operational goals that U.S. 
forces must have in addressing the issue of terrorism; and one 
of them interests me. It states, ``Deny enemies sanctuary by 
developing capabilities for persistent surveillance, tracking 
and rapid engagement.''
    Previous to September 11, if we had looked at our military 
forces and looked at surveillance, rapid engagement, we might 
have looked at things that were traditionally military targets 
and--for example, is there a submarine off the coast of the 
United States. Now that our potential threats have shifted and 
the form in which they may come, in reading a statement like 
that you have the issue of balance both of our Constitutional 
rights and also making certain that we are not doing the wrong 
things, such as searching 85-year-old grandmothers traveling 
with their grandchildren about ready to get on a plane.
    Can you elaborate some on--I mean, obviously, there has 
been some analysis as to what the need is for their 
capabilities--what type of surveillance tracking and engagement 
is being undertaken in context to what the potential threat is. 
Can you give us some background on that?
    Mr. McHale. Yes, sir. Surveillance really falls into two 
categories, from both a military and a Constitutional 
perspective. The defining line is whether that surveillance is 
external to the United States or is internal to the United 
States.
    I don't have a copy of my formal statement in front of me, 
but just very briefly let me tell you that the Department of 
Defense would take the lead role in terms of continuing 
surveillance when that surveillance is external to the United 
States and designed to identify, deter, and defeat an act of 
foreign aggression or a national security threat. So we are 
developing, as rapidly as we can, the capability to establish 
platforms for surveillance that, with significant loitering 
time, will enable us to literally see threats that are 
approaching the United States either on the sea or within the 
air.
    With regard to surveillance as it may take place lawfully 
within the United States, that type of surveillance is subject 
to both Constitutional and statutory constraints. The 
Department of Defense is subject to the Posse Comitatus Act. So 
in terms of surveillance the Department of Defense role, if 
any, would be to--lawfully to support a lead Federal law 
enforcement agency. Where, for instance, we might make 
available to a lead Federal law enforcement agency for the 
proper and lawful use of that equipment, DOD property that 
would give to, for instance, the FBI, an air platform that 
would allow the FBI or perhaps the border patrol to maintain 
aerial surveillance for civilian law enforcement purposes of a 
particular piece of terrain.
    But the Department of Defense would not be engaged in 
surveillance of that type in a direct way. We do not have that 
authority. We are prohibited from domestic law enforcement by 
the Posse Comitatus Act. So once you come ashore, our only 
relationship to surveillance is to provide assistance to a lead 
Federal law enforcement agency in its lawful activities.
    Mr. Turner. General, in your comments on page 6, talking 
about intelligence with USNORTHCOM's challenges, you state 
that, ``Another shared challenge is to overcome cultural and 
procedural differences among the DOD and other Departments for 
information that is collected, categorized, classified, 
analyzed and disseminated.'' Could you elaborate--because you 
don't in your comments--as to what some of these cultural and 
procedural differences are?
    General Anderson. Well, sir, as I mentioned in my opening 
remarks also, the fact is that we are now faced with a 
situation where we have to fuse law enforcement information 
with intelligence. In the past when we have been associated 
with EUCOM or SOCOM or something such as that, we were not 
faced with the law enforcement information issue, if you will; 
and so, to protect the privacy of citizens and all of that kind 
of thing, we have got to make sure that all of our processes 
are in place to accommodate that.
    What we have done to do that is we do, for example, have a 
representative from the FBI on our staff who assists us in 
working with the FBI and with the Joint Terrorism Task Force 
that they have established there at the FBI. And then we have 
an intelligence oversight committee that is embedded within our 
intelligence center who is constantly reviewing the information 
that we are receiving to make sure that we are not exceeding 
any of the laws or regulations that we must abide by.
    Mr. Turner. Thank you.
    Mr. Janklow.
    Mr. Janklow. Thank you very much, Mr. Chairman.
    If I could, I would like to preface my question with a 
comment. Let's get back on this train that is headed toward the 
town. The reality of the situation is, but for someone who just 
assumes command on their own, the train is going to go into 
town and be blown up. Because people are going to be debating, 
is this the sheriff's issue, or is it the police chief's issue? 
Is it the highway patrol issue, or is it the State DCI issue? 
Is it an FBI question, or is it an ATF question? Do we call the 
homeland security? Do we call FEMA? Do we call the White House? 
Who in the world do we call?
    Meanwhile, the train is rolling down the tracks; and it is, 
frankly, not going to be stopped by anybody unless someone--and 
I think the reality is there is no base commander in America 
that on their own is going to decide this is a military 
situation and I am going to rush out there with all of the 
people in uniform to deal with it.
    Fortunately, we have never had to deal with terrorism in 
this country before, and we don't know how to do it, and we are 
learning. We can learn from people like the Israelis who have 
been subjected to it for a great deal of time. There are other 
countries where it has taken place, to lesser extents, on a 
continuous basis. But we don't know how to deal with it yet.
    The military works because there is one commander in chief. 
There was a chain of command all of the way down to me when I 
was a private in the Marine Corps. I knew all of the way up and 
down the ladder how it worked.
    So does everybody in the military. There are 18,000 law 
enforcement units in America. It doesn't work. You don't even 
have the ability to communicate with them. Some of you are on 
high band, some are on low band; some are on UHF. Correct? Some 
are on VHF. Some are on 150, some are on 450, some are on 700, 
some are on 800, some are on 900, and unless you want to talk 
Simplex in most places, you don't even have the ability to talk 
to each other because you don't have trunk systems. This is 
unbelievable. We don't have homeland security; we have 
conversation going on in America. And look, I love you people. 
I mean it. You are doing a heck of a job. But what is it that 
we can do to facilitate really getting something done to 
protect--am I wrong with my scenario? As this train goes down 
the track who is in charge? We can't just say civilian 
authorities. Who is it? Is it the police chief? Is it the 
sheriff? Is it the fire chief? Is it the mayor? Is it the 
chairman of the county commissioners? Is it the Governor? Who 
is it? Who is it? And we don't know. Do any of you know?
    Mr. McHale. Yes, sir, I think we do.
    Mr. Janklow. OK. Good. Now, the train's moving, so we've 
got to have an answer.
    Mr. McHale. Call the FBI.
    Mr. Janklow. Pardon?
    Mr. McHale. Call the FBI.
    Mr. Janklow. And it's 7 o'clock at night in North Dakota 
and you get a recording and then someone answers in 
Minneapolis. Now what do you do? And they are going to activate 
a team from where?
    Mr. McHale. And that goes to the heart of your question, we 
know who is responsible. The question is, are they 
operationally capable to respond; and I'm not prepared to 
answer on behalf of the FBI. But I can tell you----
    Mr. Janklow. But the train is moving, sir. What do they do 
right now, today?
    Mr. McHale. Today the response would be provided by the 
lead Federal law enforcement agency. That's the FBI. The 
Department of Defense would be standing by to provide whatever 
support that lead Federal law enforcement agency required to 
accomplish its mission. What you describe is a very difficult 
circumstance involving a remote area, a rural area that may tax 
significantly the operational capabilities of the lead Federal 
law enforcement agency. But we have made a decision within our 
Nation that law enforcement, including domestic 
counterterrorism, is a civilian responsibility.
    Mr. Janklow. In light of the existing world today?
    Mr. McHale. Yes, sir.
    Mr. Janklow. Is that a good decision?
    Mr. McHale. Yes, sir, it is.
    Mr. Janklow. Do we need to sort out the jurisdiction 
better?
    Mr. McHale. I think we need to make sure the operational 
capabilities match in a proper way the assignment of 
responsibilities. We are the kind of nation we are because 
civilian law enforcement is carried out by a law enforcement 
agency. Our military works extremely well, but we train 
primarily to deter and defeat enemy attacks overseas or those 
that are approaching the United States.
    Just as a quick aside, when I left the Congress for 2 years 
I taught the Federalist Papers, and one of the concerns of our 
founders, and contrary to my expectation, there was always a 
concern about a large standing army.
    Mr. Janklow. Agree.
    Mr. McHale. I was worried that might be a fear that 
military values would be imposed at the point of a bayonet. 
That in fact was not the principal concern. The principal 
concern was that along the frontier, if the military took the 
lead, it would become indispensable to the physical security of 
society and that by the embrace of the civilian population the 
military as the savior of the civilian population would become 
too powerful and that military values would be imposed upon our 
Constitutional system of government.
    That remains a legitimate concern if we back away from the 
founding principle, which is civilian supremacy and civilian 
law enforcement.
    Mr. Turner. Mr. McHale, we're going to go for a second 
round of questions for 5 minutes. We will begin that with our 
chairman, Mr. Shays.
    Mr. Shays. Thank you, Mr. Chairman.
    There is so much we could focus in on. I don't know if I 
want to spend time having this be a hearing on the 
overutilization of your service, but I want to state what I'm 
sensing, that I really never really focused on, but it's 
logical to me. I mean, we've basically had law since 1878 that 
said the military are prohibited from direct involvement in law 
enforcement activities, arrests, searches and seizures, and so 
on. We have put exceptions in that in the cases of say drug 
interdiction and so on. We are all pretty much united that's 
the way we want to continue.
    What I'm first trying to get a handle on is, is this 
command of USNORTHCOM. Should I view it the same as I would 
view any other command in terms of how we train our troops? Not 
yet on its mission, but how we train our troops. If you are 
stationed at USNORTHCOM, do you still fly a plane the same way? 
Do you still--are you still onboard a ship doing the same 
things? But then, is it different when it's land based, for 
Army in particular, I gather? And then, is the training 
different? And then, if someone leaves USNORTHCOM, have they 
basically been put down a path that makes them not all that 
useful if we need to bring them into Iraq?
    So, General, maybe you could start me out.
    General Anderson. OK, sir. A couple of things I guess is to 
look at it from an operational and a tactical level, if I may. 
And if I can start down at the tactical level, boots on ground 
kind of a point there. Some of the missions that we have within 
USNORTHCOM, and to be more specific the civil disturbance 
mission is an example, where we have forces which are earmarked 
to perform a civil disturbance mission. Those folks--but that's 
not their only mission. They have that mission as well as other 
missions. They are on alert to be deployed within a specified 
time to any location at the direction of the President. And 
they do undergo some specific training associated with that 
mission. The same thing with our Quick Reaction Forces and our 
Rapid Reaction Forces. But they are basically extensions of 
their military skills for the most part. So it's very what we 
refer to as situationally dependent, depending upon where it is 
they are going. For example, if they have to go to protect some 
critical infrastructure, then they have to have the knowledge 
of the location and the situation and that kind of thing, but 
they are employing basic military skills under a command and 
control architecture.
    Now, from an operational point of view, at our 
headquarters, for example, what we use is we use the same 
military planning principles that are used in EUCOM and CENTCOM 
and every other command headquarters, because it's proven to be 
successful and it has application to the homeland defense 
mission area as well.
    So if an officer leaves Northern Command and moves to EUCOM 
or moves to the Joint Staff in the Pentagon or whatever, there 
is no retraining that is going to be necessary for that 
individual.
    I hope that answers your question, sir.
    Mr. Shays. But the enemy is both what we would view 
conventional as well as nonconventional. What makes it a little 
bit more unique here is the mission that then also, given the 
standing practice since 1878, you do have to call the FBI 
first. And I would think the answer to your question is, right 
now it's not going to be satisfactory; and if you are in a 
rural area and you call them, you are not going to get the kind 
of response and so on.
    Mr. McHale. Mr. Chairman, I would hesitate to say that 
because I really don't know how robust the FBI's capabilities 
are, and I would not want to assume nor communicate to our 
enemies that the FBI might be limited in terms of its reach and 
response time because it may well be that the FBI is fully 
prepared to respond throughout the United States in a timely 
and effective manner.
    Mr. Shays. It just sounded, though, if I could, that when 
the Governor was asking this question he speaks with some 
authority that you might get a recording. And so----
    Mr. McHale. Obviously, I'm not in a position to respond to 
that. But I do want to be cautious that we not say anything 
today that would imply a deficiency in terms of the FBI's 
ability to respond.
    Mr. Shays. Is this your part of the equation--is this what 
you have to verify? Is this what you have to--in your capacity? 
So while you don't want to convey that, you can't tell me 
candidly with all certainty that we have it all together yet?
    Mr. McHale. I can't with regard to crisis management. It's 
separated in two parts. The scenario you described is what's 
called crisis management, before the device or the explosion 
takes place, how fast can we get there to stop it. If it's 
domestic counterterrorism, that's the FBI. And I really don't 
know enough about the FBI's capabilities nor would it be 
appropriate for me to comment on those capabilities. But if, 
God forbid, the enemy attack were tactically successful--we 
would ultimately defeat that terrorist threat. But if in a 
given instance the attack were to be successful, we within the 
Department of Defense and NORTHCOM in particular through its 
Joint Task Force for Civil Support have substantial robust 
capabilities to respond to multiple simultaneous WMD attacks 
throughout the entire Nation. And so if it does explode and if 
the contaminant is released, we do have the capability within 
the military, we train to it, we concentrate the right kinds of 
specialties in those units, and we are prepared to respond 
nationwide in consequence management, as opposed to crisis 
management, which is a civilian law enforcement function.
    Mr. Shays. I just would conclude by saying to you that--and 
put on the record, this committee is somewhat unique as well as 
your command, because while we don't appropriate and we don't 
authorize legislative language, we do look at programs and 
operations and so on of the Department of Defense, the State 
Department, and the Department of Homeland Security. And we are 
really the only committee I think of in Congress that has that 
jurisdiction, which is a very important jurisdiction because it 
is a unified, that we all need to get all of those parts 
working together.
    So we look forward to working with you, and maybe some of 
this will be done off the record or behind closed doors. But I 
do think the crisis management is one that we obviously are 
concerned with, too.
    Mr. McHale. Yes, sir.
    Mr. Shays. Thank you, Mr. Chairman.
    Mr. Turner. Mr. Ruppersberger.
    Mr. Ruppersberger. You know, this is an evolving progress 
and, again, the purpose of the committee to raise the issues. 
And hopefully we can recommend or have influence on where we 
are going to be. And I want to get back on that train to an 
extent, because basically you answered the question about who 
is in charge, and you call the FBI. But what really happens in 
this crisis situation is that you always need to be prepared. 
Well, if you are going to be prepared, you need resources, you 
need training, and you need money really to be able to do the 
things that we need to do in the event that there is a crisis 
like is explained and using the train as an example. So, but 
from a local level when this occurs, it can occur at 3 a.m., 
urban, rural, suburban, whatever. The process I think and the 
teamwork for all levels--because we are all here as one 
country, and we want to make it happen as quickly as we can, 
and we don't want to go through the bureaucracy of having the 
mayor having to call the Governor and the Governor gets 
whatever. And that's where I think the training resources need 
to be there, and it really begs the issue. We give resources to 
our military to go to war; we need the resources here.
    Now, the one area that I'm a little concerned about is the 
area of the Coast Guard. And the Coast Guard, who has a lot of 
responsibilities, drug interdiction, the inspections and our 
waterways, but now they have a larger role in homeland 
security. And I'm wondering, what do you feel that the Coast 
Guard might need--if you can answer that question--and where do 
you see their role, increasing or decreasing in some areas, in 
order to be able to fulfill their mission of homeland security? 
Who wants to get that one?
    Mr. Hall. I can chat a little bit about the Coast Guard 
Reserve. I have talked to the Commandant of the Coast Guard, 
and as you know, the Coast Guard Reserve was about 12,000, it 
was reduced to around 8,000. And with the increased demands 
they have on port security units, cargo, boarding ships, it has 
been his position that they need to grow. And I think the 
current figure is 10,000, and he's been looking at about 1,000 
a year or so. It was a view that they needed more end strength, 
which they are programming, because they have an increased role 
in trying to board and look at the cargo containers, port 
security, integrate properly with the Navy and the harbor 
defense.
    So from my lane, the Coast Guard Reserve portion, that's 
what they are growing to, and I think it's currently up from 8 
to 10 and possibly growing more.
    Mr. Ruppersberger. OK. You're talking manpower now. But how 
about their role as far as--and working with I assume in the 
event that there is some issues, that they would be dealing a 
lot more closely with you?
    Mr. McHale. Congressman, I think I can address that. The 
first thing we should recognize is that in the absence of a 
wartime footing the Coast Guard is an agency that falls under 
the Department of Homeland Security, not the Department of 
Defense. The traditional relationship----
    Mr. Ruppersberger. That might be better off now; they might 
get more resources that way.
    Mr. McHale. Well, obviously they were never under the 
Department of Defense. They went from one civilian agency to 
another. However, your basic point is absolutely valid, and 
that is in an age of terrorism during an ongoing global war 
against terrorism it is vitally important that the Coast Guard 
and the Department of Defense be fully integrated to provide an 
in-depth, integrated maritime defense for the United States of 
America. The Coast Guard is under the Department of Homeland 
Security and has police power out to 12 nautical miles. Beyond 
12 nautical miles, out to about 24 nautical miles, they have 
lesser thwart but still authority that allows them to establish 
a maritime homeland security defense in depth. I am convinced, 
however, that there is a very significant role for the Navy 
Reserve and the Navy to play in defeating the approaching enemy 
threat, including an asymmetric terrorist inspired weapon of 
mass destruction, well beyond the blue water in which the Coast 
Guard traditionally defends the United States. And so the key 
is to make sure that the Coast Guard defenses that go out 
approximately 12 nautical miles are integrated into a Navy 
defense that goes out much further.
    Mr. Ruppersberger. There is one other issue, and that's the 
issue of intelligence, too.
    Mr. McHale. Yes, sir.
    Mr. Ruppersberger. I think one of the biggest 
responsibilities for the Coast Guard is the ports and the cargo 
that's coming in. Now, there's technology out there where you 
can inspect, and yet you don't want to slow down the ships or 
the ships won't come in with the cargo.
    Mr. McHale. Yes, sir.
    Mr. Ruppersberger. So there's a lot of issues there. But 
it's that sharing of the intelligence at the port where the 
cargo starts to come into our country and then the technology 
that's needed once it comes into the port.
    Mr. McHale. Yes, sir.
    Mr. Ruppersberger. How do you see that and sharing of 
intelligence?
    Mr. McHale. That is vitally important. It is our first line 
of defense. And I've had the opportunity to attend General 
Eberhart's intelligence briefings out of Colorado Springs, and 
I've expressed to the General and to others my belief that 
General Eberhart's area of interest in terms of intel is 
worldwide. He needs to look out well beyond his own AOR to pick 
up information and analysis of raw intel so that he can 
anticipate the enemy threat long before it approaches his AOR. 
And that intel requirement, as you correctly point out, extends 
back into his AOR, not only to the port and the Coast Guard, 
but beyond that in terms of the sharing of information with 
civilian law enforcement authorities.
    Looking at the pipeline from the opposite end, if a weapon 
of mass destruction is to be brought by the enemy into the 
United States, I think a terrorist organization is likely to 
bring to the United States in advance of the weapon itself a 
receiving party, a cell, to--to use Marine Corps terminology, 
to prep the DLZ. They are not going to bring in a weapon of 
mass destruction cold; they are going to have a team of 
terrorists in the United States ready to receive that weapon 
and operationally deploy it. Therefore, it's entirely possible 
that our first indication of a threat from overseas will be 
gathered by a civil law enforcement agency in the United States 
which becomes aware of that embedded terrorist cell.
    And so from an overseas collection analysis to a sharing of 
information lawfully with civilian law enforcement agencies, we 
have to have a transparency that allows everyone who has an 
interest in homeland defense to have legitimate access to the 
information they need. And the President's proposed Terrorist 
Threat Integration Center [TTIC], as proposed in his State of 
the Union Address, will ultimately achieve that purpose.
    General Anderson. Sir, I prefer that we don't leave here 
with you having the idea that the Navy and the Coast Guard are 
not cooperating, because that is not true. The Coast Guard, as 
you know, has the lead for port security and if they need 
assistance then they come to the Department of Defense and ask 
for assistance, as they did for support of Operation Iraq 
Freedom. And although I cannot in this venue give you the 
operational technicalities of what it was that the Navy 
provided them, the Navy provided them support in order to be 
able to assist them to do their mission.
    At the same time there is currently a Maritime Homeland 
Defense Working Group that has been meeting for several months 
which is addressing courses of action to be able to develop a 
command and control scheme, if you will, to be able to address 
that seam that was talked to between the Coast Guard and the 
Navy.
    Four courses of action have been developed. They are being 
war gamed and will be recommended. And then there is also right 
at this moment a jointly manned Navy-Coast Guard Maritime 
Surveillance Center down in the Norfolk area which is looking 
at those things that are coming in and out of here.
    Mr. Ruppersberger. I think that cooperation is good. I 
didn't mean to say that at all. It is very good. It's just that 
the resources aren't there to do as much as we need in the 
homeland.
    General Anderson. They would like to do more, no question 
about it.
    Mr. Turner. We will return to our train engineer, Mr. 
Murphy.
    Mr. Murphy. I'm going to switch to a different mode here.
    First, let me ask again about Reservists. As people are 
being deployed overseas, tell me how you work now into the mix 
of decisions about who remains home, about what kind of 
decisions are made. I know when I talk to our local Reservists 
and Guard they geared up for Iraq or Kuwait, but not 
necessarily for what jobs were needed to do at home. I'm 
assuming this is an evolving process, and I wonder if you could 
just elaborate on that for a moment, on what evolution is 
taking place on their homeland duties for those decisions made 
of who goes, who stays.
    Mr. Hall. Well, I can talk a bit about the demobilization. 
I participated in the mobilization of all of our Reservists for 
Iraq, and it was based upon requirements. And when the 
combatant commander came in with the requirements for the 
forces, those flowed through, and the decision of whether it 
would be active or reserve was made and then within the reserve 
capabilities that existed which particular type of units. So 
the decisions were based upon the capabilities. We also looked 
at things like the BIDS group which had particular capabilities 
and, should all of those be deployed, what would that leave for 
the United States.
    So there was a conscious decision throughout to take a look 
at both the active and the reserve and the requirements, and, 
when you made that decision, what residual amount of capability 
did you have left. And, of course, we only touched about 20 
percent of our entire guard and reserve in this mobilization. 
So there was resident still 80 percent in the United States. 
And so we looked at not from each State we took them out of, 
but the capability. And that's how we went about in a very 
methodical way of that process and each time asked what 
capability did that leave us, what have we deployed, and, in 
the overall posture, what does that mean.
    Mr. Murphy. OK. Good. Now let me turn back to an issue, and 
it has particular concern to me because on September 11 the 
county executive for Allegheny County in the Pittsburgh region 
received a call from the flight tower at Pittsburgh 
International Airport, and the conversation went something like 
this: We are going to abandon the tower at Pittsburgh Airport. 
We have--are radar tracking a plane that's flying erratically. 
We don't know what it was. It turned out to be United Flight 
93. It is headed this way. You have to make some decisions on 
what you need to do to evacuate this county and city 
facilities. We will call back if something new develops. That 
was the call.
    Now, we all know we have come a long way since then. But it 
hits us particularly--because I know this plane flew over my 
district. And when I hear the conversations that took place 
between the emergency responders and others on this, that the 
people on board that plane were making conscious decisions not 
to do anything yet while it was still over the populated area 
in southwestern Pennsylvania. And so the policemen, the 
firemen, the EMS, the hospitals in my district oftentimes ask 
me, what would we do if something happened again. And I wonder 
if you can give me some information whatever can be shared now, 
but certainly along the lines of, if not then, perhaps another 
time, of helping the local emergency responders to understand 
about the communications network and the action network, but 
particularly communications. I'm sure you've replayed this 
scenario at other times: What would we do if it happened again? 
And I wonder if you can give some reassurance to those 
emergency responders of the kind of changes that you've made 
and what they can anticipate in terms of other training and 
facilities in the future.
    General Anderson. Sir, if I could, I would like to address 
that from a NORAD perspective, because I think that's probably 
appropriate. As you might imagine, back on September 11 it was 
a different story, but since then certainly it has changed 
considerably. And one of the things that has changed has been 
our linkage with the FAA. The FAA would immediately be aware of 
what that situation is, I would expect, in the tower because of 
the communication between those folks and probably even the 
President of FAA. They immediately go to Cheyenne Mountain 
where we have our command and control apparatus there for air 
warning and so on and so forth. And then it goes from there 
into the national authorities. And if there is a CAP, a Combat 
Air Patrol, that's in the vicinity, we may very well hit--point 
him in that direction to wherever that plane is. If there is 
not a CAP and it appears as though this aircraft is a hostile 
activity or a takeover of some sort, then we will scramble an 
aircraft. Whether or not it will be able to get there in time 
is a time-distance problem obviously. But to hopefully give 
some folks some comfort we exercise this constantly. As a 
matter of fact, as recently as last Thursday I was involved 
where we actually had aircraft up, simulating hijacked 
aircraft, where we actually scrambled fighters, where we were 
actually talking to the people on the ground, to the people in 
the State Department, so on and so forth. And it was a multiple 
scenario issue--in other words, multiple events going on at the 
same time--one of which was a hijack. We do this frequently to 
make sure that all of the communications, all of the 
procedures, and all of that are in place to be able to address 
the problem and not let us have a repeat of September 11.
    Mr. Murphy. I would hope that those things in the future 
could also include--and again I'd like to talk to you about 
some things so the local emergency responders are aware, at 
what levels they can be made aware. I understand there's other 
security issues that are involved here, too. But these are the 
folks who come to me frequently who really have a lot of 
questions, and I hope you will be able to meet with them 
sometime. Thank you.
    Thank you, Mr. Chairman.
    Mr. Turner. Mr. McHale, I want to return back to your six 
operational goals for the Department of Defense that you have 
identified with the U.S. forces and to this Congress: Deny 
enemy sanctuary by developing capabilities for persistent 
surveillance, tracking, and rapid engagement.
    You did an excellent job of describing the differentiation 
between external and internal to the United States, and the 
limitations and the Constitutional limitations of the 
Department of Defense taking any actions internal to the United 
States and also making a distinction between foreign aggression 
and issues of national security.
    And I want to get back to that distinction, because that's 
the one that I find really interesting. As we discussed the 
issue that, previous to September 11, what we would have looked 
at for surveillance and tracking would have been traditionally 
military type targets. Now, when you talk about the broader 
issue of national security, I would like some additional 
discussion as to what you mean by denying enemy sanctuary by 
developing capabilities for persistence surveillance, tracking, 
and rapid engagement. And focus, if you will, because it seems 
to be an area that you are more comfortable with, on the issue 
of external to United States because that will have less 
Constitutional restrictions.
    Mr. McHale. Yes, sir. I'm limited somewhat in terms of the 
detail that I can provide in open setting. But with the 
extraordinary global tracking capabilities that we now have, it 
is possible for the United States to, first, identify a 
potential threat, let's say in terms of an aircraft or a ship, 
and then maintain real-time continuous surveillance of that 
enemy platform over an extended period of time. And so when I 
talk about tying enemy sanctuary by developing capabilities for 
persistent surveillance, tracking, and rapid engagement, I 
think it's entirely within the reach of evolving technology 
that we could identify a ship associated with a terrorist 
organization and maintain worldwide surveillance of that ship 
in order to guarantee that it would not pose an immediate 
threat to the United States of America.
    Additionally, if we were to identify let's say a ship that 
might be a threat to the United States, and if through evolving 
technology we were to maintain situational awareness of where 
it was located all the time, and should it pass into an area 
that posed a serious threat to the United States, again, 
utilizing foreseeable technology, it might be possible to 
deploy and operationally use remote sensing capabilities that 
would enable us to determine with a high degree of probability 
whether or not that ship had aboard a weapon of mass 
destruction. I think there is great potential for the further 
development of remote sensing capabilities related to weapons 
of mass destruction so that we could in the first instance be 
aware of a threat and in the second instance confirm whether or 
not that threat involved the likely use of weapons of mass 
destruction. I frankly would hope that in the not too distant 
future we would be able to deploy sensor rays that would allow 
us to detect from varying distances of standoff whether or not 
a particular ship approached our coastline with a weapon of 
mass destruction.
    And so we have to maintain the ability to defeat hostile 
nation states and traditional maritime threats, but I think one 
of the primary traffics now assigned to NORTHCOM and to my 
office in conjunction with many others is to develop the 
technology and operationally employ the technology that will 
allow us to defeat not only hostile nation states but terrorist 
organizations and asymmetric WMD threats.
    Mr. Turner. Thank you.
    Mr. Janklow.
    Mr. Janklow. Thank you very much.
    If I could, let's talk about communication for a minute, 
the technology itself. The reality of the situation is, is that 
given the way spectrums have been allocated in this country, 
the existing authorities of the FCC, and some statutes, we have 
an incredible hodgepodge. The military used to have that 
problem. If I'm remembering the Grenada invasion, there was 
actually a captain or major who received an award because he 
tried to call in an air strike and couldn't, so he used his 
AT&T credit card from a pay telephone, called the 82nd 
Airborne, who patched him through to the Pentagon, and put him 
through to an AWACS, and he called in a strike.
    In Iraq the first time or Kuwait, and this time, all your 
military--all our military can talk to each other real-time all 
the time. Our civilians don't have this capability. In the 
States, the feds are on different frequencies and can't even 
always talk to each other, be they the Interior Department 
authorities, the Bureau of Indian Affairs, the FBI, the Forest 
Service, the State authorities can't talk to each other, and 
very few of them can communicate real-time all the time with 
the feds. What will it take for--is it--what should we do to 
fix it? Because, you know, when you talk about after the fact 
and crisis management I don't question after the fact we have 
phenomenal ability in this country, and you are all going to do 
a great job. I mean, because we can bring a lot of resources 
together very quickly to fix things. It's the crisis management 
I'm worried about. And we can't stop everything. But to the 
extent that we can, we have to, or at least have to try to do 
it. And communication is a key to this, and it's a big key in 
crisis management. I mean, I've been involved in it with a 
community that was totally destroyed, and we had to actually go 
out and buy a radio system and fly it in and just hand them out 
to people so we could all get on the same frequency between the 
feds, the States, the locals, and the others so we could 
communicate with each other.
    The same is true when a forest is on fire. All the Federal 
firefighters that fly in can't talk to the State firefighters 
because they are on different frequencies.
    How do we fix--what is it--I think only Congress can fix 
this. What should we do to fix it? Or will it fix itself, or 
can you guys fix it without us? And I'm looking at you, 
Secretary McHale, but I will ask you all, from you, General, to 
all three of you. How do we fix the problem? There can't be a 
bigger--I mean, when we were looking for a sniper in America, 
or snipers, we didn't know if these were foreign terrorists or 
locals. And look at the problems there were with all of those 
law enforcement agencies and all the different jurisdictions 
and States over who was boss. And the fact that they get 
together to collocate, coordinate, and communicate is not 
really the way to run a crisis.
    Mr. McHale. Sir, I think when you were in the Marine Corps, 
and I know when I was in the Marine Corps----
    Mr. Janklow. It was so long ago.
    Mr. McHale. Within the dim recesses of our memory.
    Mr. Shays. A little bonding going on here?
    Mr. McHale. A little bit. Semper fi.
    You train as you are going to fight, and I believe that we 
have to make the training for homeland defense missions as 
close to operational reality, as intense, as demanding, as 
difficult as we can make it in a training environment. That's--
--
    Mr. Janklow. And you're great at that. I mean, when Payne 
Stewart's airplane took off from Florida it crashed in my 
State. We knew real-time all the time from the FAA, from the 
Defense Department, from the Air Traffic Control, all of them 
were in sync on it literally as it followed it through the sky. 
The Kentucky National Guard, the Iowa National Guard, the North 
Dakota National Guard, the Air Force were all with that 
airplane all the time trying to determine where it was going to 
come down. And, that's great. But what I'm talking about is the 
communication side. How do we fix the ability to grab a radio 
and talk to each other?
    General Anderson. Sir, if I could. I mean, if you look at 
the military and where we are today, and you alluded to what it 
was in Grenada and now what it is today, and we look to see how 
was it that we were able to achieve that, it was through 
standards. It was interoperability standards. We didn't go out 
and buy everybody the same radio. We took the radios that 
existed and made sure that they were compatible and as 
technologically available to be done. And I think you will find 
in the panel that's after this one General Reimer will talk to 
you about that.
    Mr. Janklow. General, should we mandate that by law?
    General Anderson. Sir, that's an option.
    Mr. Janklow. Will that fix the problem?
    General Anderson. It may, but it will take time. We're 
going to have to be patient. And it will take money.
    Mr. McHale. And I would encourage you--4 or 5 years ago I 
would have been as deeply concerned as you are. I just met 
recently with the Virginia CST, their Civil Support Team, Title 
32 status National Guard, and I peppered them with the same 
questions that you're presenting to us. Technology now does 
empower interoperability of communications. And I said to the 
CST, look, when you roll in on a site, and the police and the 
firefighters and EMTs and the paramedics and the HAZMAT folks 
are already there, are you going to be able to talk to them? 
And as best they could explain it to a government major, they 
took me into their comm center, and they showed me how they 
would be able to communicate with all of those diverse entities 
that 5 years ago I would have been very doubtful that they 
would be able to do that.
    Mr. Janklow. And if they didn't have a comm center, they 
couldn't do it?
    Mr. McHale. Yes, sir. That's correct.
    Mr. Turner. Thank you. For closing comments, we will turn 
to our ranking member, Mr. Ruppersberger, and Chairman Shays. 
We'll start with Mr. Ruppersberger.
    Mr. Ruppersberger. Just I would like to introduce for the 
record a written statement. I'm not going to read it.
    Mr. Turner. We'll make certain that it's part of the 
record.
    [The prepared statement of Hon. C.A. Dutch Ruppersberger 
follows:]

[GRAPHIC] [TIFF OMITTED] T9353.035

[GRAPHIC] [TIFF OMITTED] T9353.036

[GRAPHIC] [TIFF OMITTED] T9353.037

    Mr. Turner. Mr. Chairman.
    Mr. Shays. Thank you. I don't want to get into in any great 
depth; I just want to have a sense of it. A chemical or 
biological attack--excuse me, a chemical or a nuclear attack, 
do the personnel that know how to neutralize these weapons of 
mass destruction, do they come out of--General, out of your 
operation? Is this a USNORTHCOM operation, or is this something 
totally separate that you kind of hire?
    General Anderson. Sir, Render Safe is a very, very 
classified subject that I would rather talk to you off line on, 
if I may, please.
    Mr. Shays. Fair enough.
    Mr. McHale. Mr. Chairman, I would simply note very quickly 
for the record that there are exceptions to the Posse Comitatus 
Act with regard to weapons of mass destruction.
    Mr. Shays. Fair enough. OK. Thanks.
    Mr. Turner. Thank you, Mr. Chairman.
    We want to thank the panelists, and ask if there are any of 
them that have any additional statements or any additional 
response to a question that you would like to add to the record 
at this time. If not, we thank you very much. And we will turn 
to our second panel, which includes General Reimer, the 
director, Oklahoma City National Memorial Institute for the 
Prevention of Terrorism; Mr. Raymond Decker, Director, Defense 
Capabilities Management Team, U.S. General Accounting Office; 
and Dr. James Jay Carafano, senior fellow, Center for Strategic 
and Budgetary Assessments; Mr. Michael Wermuth, senior policy 
analyst, RAND Corp. If you would all come forward.
    [Witnesses sworn.]
    Mr. Turner. Let the record reflect that you all responded 
in the affirmative.
    We are going to begin by asking each of you to make a 5-
minute statement. And we will begin with Mr. Decker.

 STATEMENTS OF RAYMOND DECKER, DIRECTOR, DEFENSE CAPABILITIES 
 MANAGING TEAM, U.S. GENERAL ACCOUNTING OFFICE; GENERAL DENNIS 
J. REIMER, DIRECTOR, OKLAHOMA CITY NATIONAL MEMORIAL INSTITUTE 
FOR THE PREVENTION OF TERRORISM; DR. JAMES JAY CARAFANO, SENIOR 
  FELLOW, CENTER FOR STRATEGIC AND BUDGETARY ASSESSMENTS; AND 
       MICHAEL WERMUTH, SENIOR POLICY ANALYST, RAND CORP.

    Mr. Decker. Mr. Chairman and members of the subcommittee, I 
appreciate the opportunity to discuss with you today the 
demands being placed on the Department of Defense in a post-
September 11, 2001 environment.
    The Department's primary mission is to deter or prevent 
aggression abroad and fight to win if these measures fail. This 
has been accomplished through military presence and power 
projection overseas, and, as we have witnessed recently in Iraq 
and Afghanistan, our military forces have conducted major 
sustained and successful combat operation. However, since the 
events of September 11, 2001, our Federal Government's view of 
the defense of the U.S. territory has dramatically changed. 
This special emphasis has required the Department of Defense to 
adjust its strategic and operational focus to encompass not 
only the traditional military concerns posed by hostile states 
overseas, but also the asymmetric threats directed at our 
homeland by terrorist groups.
    Last year at the request of this subcommittee we initiated 
a review of the domestic military missions performed by the 
Department and their impact on the Department's ability to meet 
all of its mission requirements.
    We will issue our report to you later this spring. However, 
my testimony today is based on our preliminary observations 
from this review. I will briefly comment on three key areas: 
The primary differences between military and nonmilitary, or 
civil, support missions conducted by the Department; whether 
current defense organizational structure, plans, and forces are 
adequate to support DOD's domestic missions; and the impact of 
domestic missions on military personnel tempo.
    First, I will cover the military and nonmilitary missions. 
In general terms--and I think this was elaborated by 
Congressman McHale and General Anderson--the military missions 
are those primary warfighting functions DOD performs in defense 
of the Nation and at the direction of the Commander in Chief, 
the President. Recent combat operations in Iraq are a good 
example of the military's primary purpose. Conversely, in 
nonmilitary missions or support missions to civil authorities, 
DOD provides military forces or capabilities in support of 
another agency. For instance, the recovery assistance provided 
by the Pentagon at the request of FEMA after a natural crisis 
such as a hurricane or flood is a support mission to civil 
authorities.
    DOD evaluates all requests by U.S. civil authorities for 
military assistance against six established criteria, including 
legality, lethality, cost, and impact on readiness to base its 
decision. During fiscal years 2001 and 2002, the Department 
supported over 230 missions requested by civil authorities such 
as fighting wildfires in the West, providing post-September 11 
recovery assistance to New York and Virginia, and supporting 
the last Presidential inauguration.
    Although established DOD guidance with a formal 
decisionmaking process exists for military support to civil 
authorities, the use of military combat forces such as U.S. 
fighter aircraft patrolling the skies of America after the 
attacks of September 11 leads into my comments on whether DOD 
has the organizational structure, plans, and forces to support 
the heightened domestic military missions.
    As you are aware, DOD has taken two positive steps to 
organize its efforts in the homeland defense role within the 
larger domain of homeland security. First, the Office of the 
Assistant Secretary of Defense for Homeland Defense, Mr. 
McHale's office, was recently created to provide leadership and 
supervision of all DOD's domestic missions. Second, the U.S. 
Northern Command located in Colorado Springs was recently 
established to provide long-term planning and execution for 
domestic air, sea, and land missions. It will be fully 
operational the first of October this year. During our official 
visit to U.S. Northern Command last week, it was clear that 
General Eberhart and his battle staff are dedicated and 
committed as they tackle their new duties in homeland defense.
    Although these two organizational initiatives are 
important, it is premature to evaluate the effectiveness of 
these organizations to address their new missions at this time. 
We have noted that the U.S. Northern Command completed its 
campaign plan in October 2002 for domestic military missions 
that will guide the forces performing these missions. However, 
the plan was developed prior to the January 2003 issuance of a 
Federal Bureau of Investigation national terrorism threat 
assessment and may need to be reviewed to ensure all threat 
aspects are appropriately considered.
    Additionally, there are indications that the U.S. military 
forces may not be adequately structured for some current 
domestic missions and military readiness may become eroded as a 
result. For example, following the September 11, 2001 attacks, 
the President deployed fighter aircraft to protect U.S. cities 
as well as military police units to enhance installation 
security across the Nation under Operation Noble Eagle. While 
all units and personnel have performed their homeland defense 
duties superbly, in some cases the assigned tasks were not the 
primary mission of these affected units or personnel; 
therefore, this condition highlights a potential imbalance 
between current force structure mix and future requirements. 
Although these specifically focused missions were deemed 
necessary, the military readiness of the assigned forces over 
time may decline due to the limited training value derived from 
these missions and the reduced opportunities to conduct other 
required combat-oriented training during the period.
    My final comments are directed at personnel tempo or the 
amount of time a service member spends away from home while 
deployed. Clearly, the current overseas and domestic missions 
are stressing U.S. military personnel in this area. For 
example, from September 2001 through December 2002, the number 
of Air Force personnel exceeding the personnel tempo threshold 
of 182 days--which is approximately one half a year--away from 
home rose from 2,100 to about 8,300. The number of personnel 
exceeding the personnel tempo threshold of 220 days away--which 
is 60 percent of a year--rose from 1,600 to 22,000. Army data 
also revealed a similar serious trend during the same period. 
Exceeding the threshold on a sustained basis may indicate 
inadequacy in the force structure or mix of forces for the 
current level of operations and could lead to retention 
problems later if military members leave the service because 
personnel tempo was too high. To prevent significant near-term 
attrition from the military force DOD has used stop loss 
authority to prohibit service members affected by the order 
from leaving the service. All four services have stop loss 
orders that are currently being used.
    Officials from the four services who manage the 
implementation of these orders caution that these are for 
short-term use and designed to maintain unit level military 
readiness for overseas combat and domestic missions. Moreover, 
the officials added that the orders are not intended as a long-
term solution to address mismatches or shortfalls in 
capabilities or requirements or as a substitute for the routine 
recruiting, induction, and training of new members.
    In closing, Department of Defense has initiated several 
important measures to accomplish its homeland defense mission, 
but needs to address concerns over the impact of this emerging 
issue on force structure and personnel tempo. Like a baseball 
team that is used to playing games at home and then away, the 
Pentagon must now balance its ability to play both at home and 
away simultaneously, and review its approach to continue 
fielding the best team for years to come.
    Mr. Chairman, that completes my statement.
    [The prepared statement of Mr. Decker follows:]

    [GRAPHIC] [TIFF OMITTED] T9353.038
    
    [GRAPHIC] [TIFF OMITTED] T9353.039
    
    [GRAPHIC] [TIFF OMITTED] T9353.040
    
    [GRAPHIC] [TIFF OMITTED] T9353.041
    
    [GRAPHIC] [TIFF OMITTED] T9353.042
    
    [GRAPHIC] [TIFF OMITTED] T9353.043
    
    [GRAPHIC] [TIFF OMITTED] T9353.044
    
    [GRAPHIC] [TIFF OMITTED] T9353.045
    
    [GRAPHIC] [TIFF OMITTED] T9353.046
    
    [GRAPHIC] [TIFF OMITTED] T9353.047
    
    [GRAPHIC] [TIFF OMITTED] T9353.048
    
    [GRAPHIC] [TIFF OMITTED] T9353.049
    
    [GRAPHIC] [TIFF OMITTED] T9353.050
    
    [GRAPHIC] [TIFF OMITTED] T9353.051
    
    [GRAPHIC] [TIFF OMITTED] T9353.052
    
    [GRAPHIC] [TIFF OMITTED] T9353.053
    
    [GRAPHIC] [TIFF OMITTED] T9353.054
    
    [GRAPHIC] [TIFF OMITTED] T9353.055
    
    Mr. Turner. Thank you, Mr. Decker.
    General Reimer.
    General Reimer. Mr. Chairman, thank you. Mr. Chairman and 
distinguished members of the subcommittee. I have submitted a 
statement for the record, and would ask that be accepted. I 
would just like to summarize that statement if I could.
    I am the director of the Memorial Institute for the 
Prevention of Terrorism and have been that since April 2000. 
Prior to that, I served 37 years in the U.S. Army and retired 
in 1999 as Chief of Staff of the U.S. Army.
    I would like to talk just a little bit about MIPT in terms 
of what we do and then broaden it a little it bit. MIPT is the 
third component of the National Memorial in Oklahoma City. And 
the family members and survivors felt very strongly about 
having an organization that looked to the future to try to 
prevent what happened on April 19, 1995 from happening again. 
And that is our charter and that is what we do.
    Because of that charter, our focus is on the first 
responder community. We have been supported by Congress through 
four different appropriations, which we deeply appreciate. 
Primarily, we concentrate on five different areas. First is a 
research program to provide the emergency responders the 
technology they need to do their job better. One of our 
projects, Project Responder, is very enthusiastically supported 
by the Department of Homeland Security and I think has the 
potential to be the cornerstone for a research development test 
and evaluation program that needs to be established for the 
emergency responder community.
    We have also been involved in training exercises, have 
supported Dark Winter, one of the co-sponsors of Dark Winter. 
We took Dark Winter and did a state exercise in Oklahoma called 
Sooner Spring, which we distributed to all 50 States under 
Governor Keating's signature and we will look at the runaway 
train scenario because I think that type of scenario is the 
thing policymakers need to think about.
    We have an outreach program primarily focused on a library 
and a Web page to try and inform the American people of the 
complex issues involved with domestic terrorism. We, 
unfortunately, in Oklahoma have too many people who have felt 
the direct effects of domestic terrorism, but fortunately they 
are willing to share their experiences and they were very 
helpful in reaching out to the victims in September 11, and I 
think that association still remains very strong.
    Oklahoma City is a great place for a conference. It's a 
neutral forum area. We are located somewhat in the middle of 
the United States. But more importantly, as we bring people 
together in Oklahoma City and talk about the issues involved 
with domestic terrorism, everyone leaves a little stronger, 
more committed, more convinced about the importance of the job 
they are doing because of the National Memorial.
    And then last is what I call flagship program, it's 
basically to tie the first responders through the use of the 
Internet share best practices and lessons learned. There are a 
lot of good best practices that exist out there, but they are 
not shared with others, and so information sharing becomes very 
important. And the idea, if you can share this best practice 
with others, then everybody gets a little bit better.
    We can also share lessons learned. We produced a volume 
called Oklahoma City: Seven Years Later, which captures the 
lessons learned from Oklahoma City many of you have talked 
about already, and we will make that available to everybody; in 
fact, we have already sent that out to every mayor in the 
United States and it has been downloaded 17,000 times from our 
Web site, so it is very much available. But we think that by 
sharing these lessons learned that everybody will get better, 
and I maintain that's the best way for the Nation to get the 
best return on our investment.
    The issue we are dealing with today is a complex issue. And 
just as Secretary McHale said, President Lincoln indicated we 
need to do some fresh thinking. The sentence before that, he 
said: There are--the occasion is filled with great difficulty, 
and we must rise to the occasion. He was absolutely right on 
both of those accounts. I think the key to this problem is 
partnership. It's a partnership amongst the Federal, State, and 
the local levels of government; it's a partnership amongst the 
private and the public sector; and it's a partnership between 
the military and civilian responder community. And since the 
purpose of this committee is looking at the latter, I will 
confine most of my remaining remarks to that.
    I believe the National Guard is the key in terms of 
military support. I think the military does a great job in 
terms of military support to civilian authority, but I think in 
this particular area we need ``to think anew and act anew'' in 
solving this problem. The reason I believe the National Guard 
is key is there is a historical precedent. If you go back to 
the very beginning in the 1600's, the National Guard was 
established to protect the settlers in the communities. They 
have had this historical mission of protecting the United 
States. They have the flexibility, the flexibility to operate 
under Title X in a Federal control status or in a Title 32, 
under State controls which gives them an awful lot of 
flexibility on issues such as posse comitatus. They also have a 
Guard Net 21, which basically ties together through fiberoptics 
capabilities most of the United States. And somebody told me 
and I believe this to be true, at least probably in the high 90 
percentile, every person in the United States lives within 50 
miles of an armory. So an armory could become the center of the 
activity.
    It was already mentioned by Chairman Shays in his opening 
remarks we need to train the way we are going to fight. We have 
to fight differently in this war against terrorism, and we need 
to train differently or else we are not going to be able to 
operate effectively when the time comes. So it's very important 
we figure out how we are going to provide military support to 
civilian authorities when we have a terrorist act. And we know 
that any terrorist attack will require military support.
    Finally, I would say that there is a group of people 
outside of the Beltway that I call the community of the 
willing, who are working on this problem. And I think part of 
what we need to do is to leverage those efforts, tie them 
together in a meaningful way, and see
if we can't pick some low-hanging fruit here which I think can 
jumpstart this effort in a very meaningful way.
    I thank the committee for the opportunity to testify in 
front of you, and I appreciate your interest in this particular 
area.
    [The prepared statement of General Reimer follows:]

    [GRAPHIC] [TIFF OMITTED] T9353.056
    
    [GRAPHIC] [TIFF OMITTED] T9353.057
    
    [GRAPHIC] [TIFF OMITTED] T9353.058
    
    [GRAPHIC] [TIFF OMITTED] T9353.059
    
    [GRAPHIC] [TIFF OMITTED] T9353.060
    
    [GRAPHIC] [TIFF OMITTED] T9353.061
    
    [GRAPHIC] [TIFF OMITTED] T9353.062
    
    [GRAPHIC] [TIFF OMITTED] T9353.063
    
    Mr. Turner. Thank you, General.
    Dr. Carafano.
    Dr. Carafano. I would like to thank you, Mr. Chairman, and 
members of the committee for inviting me here to speak today. I 
have submitted a statement for the record, and I would just 
like to summarize if I may just three points from that. The 
first deals from my own experience. I'm trained as a historian, 
and I thought it was of great interest when the debate over the 
establishment of the Homeland Security Department came up and 
the references that were made to the National Security Act of 
1947 that created the Defense Department, and I think indeed 
that analogy is indeed apt.
    But what I think people tend to forget is that the national 
security architecture that we used to fight the cold war was 
not cut from whole cloth. It really took a decade. I mean, if 
you look at between the years 1947 to 1957, the 
experimentation, trial and error, get it right, get it wrong, 
to really figure out how we were going to fight the cold war. I 
mean, that's when all the principle instruments were really 
invented, deterrence, NATO, security assistance, and the things 
we weren't going to do, like robust civil defense. And so I 
think there is a real lesson there, is that we are really at 
the beginning of the process. And now is not just the right 
time to hold this hearing, but it's the key time because it's--
this is going to be an evolving architecture and now is exactly 
the time to get it right, because the architecture that we set 
up today will be the one that will exist for generations to 
come.
    The second point I would like to make is that the questions 
that you asked and a lot of the discussions about organization 
and force structures and methods, and I think all that is very 
important, but what I think is equally important if not more 
important is strategy and strategic guidance, because I really 
do think that strategy and strategic guidance guide the 
Department of Defense, and they're what's required for turning 
the ship. In my analysis of this current strategic direction, 
it is fine if you think the status quo is adequate. But if you 
think the status quo for DOD's current direction is inadequate, 
then I think we also need to think in terms of the strategy and 
strategic guidance that's required to turn the ship in a 
different direction.
    The last point I want to make and I think is really the 
most important, is that as you look at DOD's role in Homeland 
Security, I really think what's most efficient and effective is 
if that role is considered and given new direction in a very 
holistic way, and in two respects. One is as part of the 
overall national response--and I just don't mean Federal 
response, because Homeland Security really requires a national 
response network that includes the State, local, and Federal 
Governments. So the DOD's role needs to be always--when we're 
looking forward, needs to be placed in context of what we are 
expecting from the rest of the national response system and 
also in terms of DOD's overall missions, both offense and 
defense. So as we change one part, as we decide what our future 
role of the National Guard is going to be in Homeland Security, 
we really need to think of that in the context of what do we
want the National Guard to do in all aspects of security as we 
think over the long term.
    And with those comments, I look forward to your questions, 
and again I thank you for inviting me.
    [The prepared statement of Dr. Carafano follows:]

    [GRAPHIC] [TIFF OMITTED] T9353.064
    
    [GRAPHIC] [TIFF OMITTED] T9353.065
    
    [GRAPHIC] [TIFF OMITTED] T9353.066
    
    [GRAPHIC] [TIFF OMITTED] T9353.067
    
    [GRAPHIC] [TIFF OMITTED] T9353.068
    
    [GRAPHIC] [TIFF OMITTED] T9353.069
    
    [GRAPHIC] [TIFF OMITTED] T9353.070
    
    [GRAPHIC] [TIFF OMITTED] T9353.071
    
    [GRAPHIC] [TIFF OMITTED] T9353.072
    
    [GRAPHIC] [TIFF OMITTED] T9353.073
    
    Mr. Turner. Thank you.
    Mr. Wermuth.
    Mr. Wermuth. Thank you, Mr. Chairman and distinguished 
members.
    I am going to focus my remarks today primarily on my work 
as the executive project director of the Advisory Panel to 
Assess Domestic Response Capabilities for Terrorism Involving 
Weapons of Mass Destruction.
    Mr. Turner. All in one breath.
    Mr. Wermuth. All in one breath. Also known as the Gilmore 
Commission, a creation of the Congress now in its 5th year, 
having submitted four reports to the President and the 
Congress, with some major policy recommendations; it will 
submit its fifth and presumably final report in December of 
this year.
    In my testimony, I go into considerable detail about the 
catalog of statutory authority for the use of the military 
domestically, but it really is important and the previous panel 
noted the distinctions between the two principal areas of the 
military mission with respect to the homeland, the homeland 
defense mission, which really is principally a Department of 
Defense responsibility to protect the homeland against 
invasion, and the military support to civil authorities. Those 
statutes, the authorities that provide that ability of the 
military to do that, really are based in the Constitution, as 
I've noted in my testimony. Certainly the Stafford Act's 
already been mentioned, but of course the insurrection 
statutes, the expansion of authorities that were originally 
designed for counterdrug activities have now been expended to 
include terrorist operations. There is some very special 
authority in a couple of statutes that I mentioned in my 
testimony, particularly 10 U.S. Code 382, and 18 U.S. Code 831, 
that allow the military to be used in some very nontraditional 
ways even inside the homeland.
    So the issue here is not whether there is sufficient 
authority. One of the big issues of course is that authority is 
not very well understood generally throughout the country in 
what the military can legally do and how posse comitatus still 
provides perhaps some measure of a constraint. But the simple 
fact is the exceptions that have been provided to posse 
comitatus for use of the military inside the homeland have not 
made posse comitatus meaningless, as the Congress acknowledged 
in the Homeland Security Act last year, but there is certainly 
plenty of authority there for using the military in a number of 
ways, both for the homeland defense mission, purely military 
mission, and for providing military support to civil 
authorities.
    In that regard, I won't use my time in my opening remarks, 
but I would hope to get on Congressman Murphy's train in the 
question and answer session and maybe give you a couple of 
additional insights or clarifications on that scenario.
    Certainly we need to do a better job of educating people 
throughout the country on what the military can and can't do, 
and particularly how you get to the military. It's important 
for all of us to understand that a mayor or a Governor can't 
just walk down to the local Title X military installation and 
ask the military to do things. There is an appropriate process 
to do that. That process is now up through a Governor to the 
Secretary of Homeland Security and then over to the Department 
of Defense when we are talking about military support to civil 
authorities. That process is not necessary in the homeland 
defense mission, but there are issues involving structures and 
plans and training and exercises that I've talked about at some 
length in my written testimony.
    Let me echo what others have said before about the National 
Guard. The Gilmore Commission in several reports culminating 
with recapitulation of those and an expansion of those in its 
fourth report has suggested that we really can and should do 
more with the National Guard. And you heard the three different 
areas for use of the National Guard in its purely State status; 
that means no Federal funds, that it is under the authority of 
the Governor to do things with the Guard in its State militia 
hat, if you will. The Title 32 piece, which is Federal funding, 
and those have manifested themselves a couple of times 
recently, certainly right after September 11 with security at 
the airports and more recently under Liberty Shield for 
protection of critical infrastructure for the Federal 
Government piece, and then of course bringing them in to a 
Title X status to do things under the national command 
authority, normal Title X responsibilities.
    But the fact is there may very well be some additional 
authority. Certainly under Title 32 there are adjutant generals 
out there who believe that they don't even have the authority 
to use Federal funds to train for certain Homeland Security 
missions because they don't see them, or their lawyers don't 
see them as being directly related to their potential Title 10 
missions for which Title 32 funds are normally provided. So 
there certainly ought to be clarification to allow them to do 
that.
    The Gilmore Commission, as you will see from my testimony, 
has proposed perhaps some additional structures and formalizing 
relationships that would allow the National Guard to be used 
not in the purely command and control sense but in a new 
coordination regime that would allow the National Guard to 
respond to requests from the Department of Defense through U.S. 
Northern Command maybe even on a multi-state basis to provide 
assistance when Title X forces may not be indicated or where, 
as Dennie Reimer said, the Guard provides some additional 
flexibility that the Title 10 component might not provide.
    So I've gone through a lot of those in my written 
testimony, and would be happy to answer any questions related 
to those and other parts of my testimony in the followup 
question and answer period.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Wermuth follows:]

    [GRAPHIC] [TIFF OMITTED] T9353.074
    
    [GRAPHIC] [TIFF OMITTED] T9353.075
    
    [GRAPHIC] [TIFF OMITTED] T9353.076
    
    [GRAPHIC] [TIFF OMITTED] T9353.077
    
    [GRAPHIC] [TIFF OMITTED] T9353.078
    
    [GRAPHIC] [TIFF OMITTED] T9353.079
    
    [GRAPHIC] [TIFF OMITTED] T9353.080
    
    [GRAPHIC] [TIFF OMITTED] T9353.081
    
    [GRAPHIC] [TIFF OMITTED] T9353.082
    
    [GRAPHIC] [TIFF OMITTED] T9353.083
    
    [GRAPHIC] [TIFF OMITTED] T9353.084
    
    [GRAPHIC] [TIFF OMITTED] T9353.085
    
    [GRAPHIC] [TIFF OMITTED] T9353.086
    
    [GRAPHIC] [TIFF OMITTED] T9353.087
    
    [GRAPHIC] [TIFF OMITTED] T9353.088
    
    [GRAPHIC] [TIFF OMITTED] T9353.089
    
    [GRAPHIC] [TIFF OMITTED] T9353.090
    
    [GRAPHIC] [TIFF OMITTED] T9353.091
    
    [GRAPHIC] [TIFF OMITTED] T9353.092
    
    [GRAPHIC] [TIFF OMITTED] T9353.093
    
    [GRAPHIC] [TIFF OMITTED] T9353.094
    
    [GRAPHIC] [TIFF OMITTED] T9353.095
    
    [GRAPHIC] [TIFF OMITTED] T9353.096
    
    [GRAPHIC] [TIFF OMITTED] T9353.097
    
    [GRAPHIC] [TIFF OMITTED] T9353.098
    
    [GRAPHIC] [TIFF OMITTED] T9353.099
    
    [GRAPHIC] [TIFF OMITTED] T9353.100
    
    [GRAPHIC] [TIFF OMITTED] T9353.101
    
    [GRAPHIC] [TIFF OMITTED] T9353.102
    
    [GRAPHIC] [TIFF OMITTED] T9353.103
    
    [GRAPHIC] [TIFF OMITTED] T9353.104
    
    [GRAPHIC] [TIFF OMITTED] T9353.105
    
    [GRAPHIC] [TIFF OMITTED] T9353.106
    
    [GRAPHIC] [TIFF OMITTED] T9353.107
    
    [GRAPHIC] [TIFF OMITTED] T9353.108
    
    [GRAPHIC] [TIFF OMITTED] T9353.109
    
    [GRAPHIC] [TIFF OMITTED] T9353.110
    
    Mr. Turner. Thank you, Mr. Wermuth.
    We will go then to a round of 5-minute questions, beginning 
with our chairman Mr. Shays.
    Mr. Shays. Thank you, Mr. Chairman.
    Looking, Mr. Decker, at your comments, does the panel all 
agree that when we look at this command, that it has the 
traditional military role and then the asymmetrical threat of 
Homeland Security defense by terrorist groups? Is this the only 
command in our government that has this asymmetrical 
responsibility?
    Dr. Carafano. Congressman.
    Mr. Shays. You have a loud voice, but I also want you to 
talk through the mic as well.
    Dr. Carafano. Right. I actually would argue that is not a 
good framework to use. I think actually if you look at the 
combatant command responsibilities, we ought to look at the 
commonalities as opposed to the differences. Even in Operation 
Iraqi Freedom, for example, you saw a commander in a theater 
who had critical infrastructure issues, intelligence and early 
warning issues, could conceivably have had civilian consequence 
management issues. So in actuality I think in the future of 
warfare all the combatant commands are going to see similar--
are going to have missions that cut across what we call the 
National Homeland Security Strategy, the six major mission 
areas. And so I think that we would be better off to move 
toward a framework that looked at the military's requirement to 
meet each of those mission areas. And, yes, it's going to be 
somewhat different for each of the combatant commands, but I 
actually think it's going to be a common thread throughout the 
regional combatant command.
    Mr. Shays. Let me just followup. Does someone else want to 
respond to that as well?
    General Reimer. Mr. Chairman, I think that it is a command 
that has asymmetric responsibilities. I think it is somewhat 
similar to SOCOM when we set that up in some ways. But SOCOM 
certainly doesn't have the asymmetrical responsibilities that 
Northern Command has, plus SOCOM has their own forces assigned. 
So there is very much a uniqueness as far as I am concerned 
about Northern Command and its mission and its structure.
    Mr. Wermuth. I am going to get on Congressman's Murphy's 
train here for a minute.
    One of the two twists from the previous testimony--and it 
is related to this question, perhaps not in 15 minutes, perhaps 
not in 30 minutes--but there are some things that this 
committee should consider that can't be discussed in this 
session that have some asymmetry to them and that fall outside 
the purview of the U.S. Northern Command that this committee 
and others of the Congress would certainly know about but may 
want to consider in this particular context.
    Mr. Shays. Mr. Decker, do you want to respond?
    Mr. Decker. Sir, I think the only thing unique about the 
other combatant commands is, as General Anderson said, the 
territory that they are protecting, which is the homeland. But 
the issue of traditional versus asymmetric threat, that is 
global.
    Mr. Shays. OK. I am unclear as to whether there needs to be 
a distinction between homeland defense and homeland security. 
Tell me why there is a distinction. Is it important?
    Mr. Wermuth. The national strategy, in trying to describe 
homeland security in the military context, describes the 
military role in homeland security at large as two 
subcomponents, homeland defense. That is the distinction that 
we draw between those terms.
    The homeland security term is a broader term. Homeland 
defense is a subset of it that is a military mission. Military 
support to civil authorities is the other piece of the military 
mission. Those two together tend to describe the military's 
role in the broader term, homeland security.
    Mr. Shays. Someone else want to respond to that? Then I'm 
going to followup with a question.
    General Reimer. Mr. Chairman, I am with you on this issue. 
I don't know that there is a distinction. The people that I 
talk to in Oklahoma don't understand the distinction between 
homeland security and homeland defense.
    Mr. Decker. Mr. Chairman, I guess it was August 2001 Mr. 
Wermuth and myself and some others spoke to an audience at the 
Army War College--this is pre September 11. There was a debate 
at that time about the use of the term homeland security versus 
homeland defense. There was a perception that the American 
public may not like the use of the term homeland security when 
talking about Pentagon activities, and I sensed--and maybe, 
Mike, you can comment--that there was a sensitivity from the 
military of the perception if homeland security was part of 
their mission.
    Mr. Wermuth. I think that is exactly right, and Ray and I 
have had these exchanges in front of a number of other panels. 
Definitions are important. If we are going to make the 
distinction, we need to make it clearly; and I happen to think 
the national strategy went a long way in trying to draw the 
distinction between the two and making the homeland security 
term much more broad and encompassing State and local actions, 
the role of the private sector, the role of the Federal 
Government.
    If the appropriate term for that purely military mission is 
homeland defense, it's as good a one as I know of. We need to 
start using those terms consistently and clearly and not 
intertwining them somehow or using them synonymously, because 
we are now very careful in the work that we do, and we are 
doing some work in this context for the Department of Homeland 
Security to keep those terms very, very distinguishable, one 
being the larger, one being more just the purely military 
mission.
    Mr. Shays. I know my time has run out. Dr. Carafano, you 
made this in your statement, so maybe you can respond as well.
    Dr. Carafano. Yes, Congressman. I do have the subject in my 
prepared statement, so I won't repeat what is in there, just to 
try to briefly summarize.
    I struggle to find the utility of distinguishing between 
homeland security and homeland defense. When you will look at 
it at the end of the day, homeland defense is responsible for 
defending the United States against invasion. Well, what is the 
likelihood we are going to be invaded? I mean, other than 
missile defense, there is virtually no real threat today that 
falls into that category. So in a sense when you look at the 
things we are asking the military to do, they are all 
essentially homeland security missions.
    I don't think the distinction is useful or well understood, 
and I go back to my statement that I think that the six 
critical functions lined out in the national security strategy 
define requirements that need to be met. So I think that it is 
a much more constructive way to look at missions because then 
you ask the question of what capability does each Federal 
entity need to be to satisfy these six mission requirements, 
not a question of is this homeland defense or homeland 
security?
    I think the legal qualifications are really quite clear, 
and there is no reason to add terms that essentially obfuscate 
the debate. I will agree with Mike that there is a serious 
education campaign that needs to be undertaken in the United 
States for people to clearly understand what the different 
legal issues are, but that is very different from needing to 
create a new word which doesn't help you understand them any 
better.
    Mr. Shays. I wish you guys would agree a little more on 
this.
    OK. Thank you, Mr. Chairman.
    Mr. Turner. Mr. Ruppersberger.
    Mr. Ruppersberger. Again, we are going through the 
exercise, and we just need to pull it all together. That is 
what we are here about.
    Would you say that coordinating the exercise and training 
for the range of activities that really NORTHCOM is going to be 
responsible for is going to be the hardest challenge and then 
coordinating that with the State and local? We get right back 
to the same issue on every question almost. But that is--but 
what is the end game? What recommendations will you have, very 
simplistic term, to get to where we need to be?
    General Reimer. What I would say, Congressman, is my first 
recommendation is that we have to go through those exercises. 
Those exercises have to be at all levels. They have to deal 
with the policy issues so the decisionmakers are exposed to the 
scenario you talked about in the first session.
    Those are not easy issues. There are not easy answers to 
these issues. You have to go through that to learn from that 
experience and get a feel for the type of decisions the 
decisionmakers are going to have to make.
    I remember watching Dark Winter--and we had a pretty good 
panel. Senator Nunn played the President. He kept saying, 
``tell me the worst case.'' The experts couldn't tell him the 
worst case because they didn't know where the smallpox started. 
Unless you can tell the point of origin, you can't determine 
who has been affected and how fast it is going to spread. So 
those are the issues that come out of those particular policy 
sessions.
    I think the issue now in homeland security is how do we 
marry the training capabilities of the military, which I think 
are the best in the world, with what we need in the emergency 
responder community, which are basically run through the Office 
of Domestic Preparedness as a part of the Department of 
Homeland Security right now. I think there is a great 
opportunity there to use military expertise, primarily the 
National Guard, to establish the front-end analysis of this 
training program that just has to be.
    Policemen are very well trained in being policemen. Firemen 
are very well trained in being firemen. But how do we bring 
them together and work together in terms of responding to a 
terrorist attack where we know that the first few minutes are 
going to save lives? That to me is where the military can bring 
this together and have an interdepartmental training program 
that allows them to do that. I think we have to be able to 
leverage what homeland security is going to do with what the 
Northern Command and Department of Defense is going to do in 
order to get this training program where it needs to be.
    Mr. Decker. Sir, if I can comment as well. I believe that 
the exercises and training are probably one of the most 
important issues that the Northern Command and Mr. McHale have 
to address. But I think the primary issue, which is one step 
above there, gets back to this issue that was not fully 
addressed earlier, and that is information sharing.
    Information is the lifeblood of any organization and is the 
key element of all decisionmaking, and without that piece being 
better addressed through a lot of different approaches your 
exercises and your training will be of limited value. The 
exercises, as someone said--it should reflect reality. You 
should train as hard as you expect a real world situation to 
happen.
    The information or intelligence that flows through that 
condition, that problem set, is key to successful outcomes with 
all parties that have to work together. My sense is--and I 
think Governor Ridge said it. He said the biggest challenge he 
has now as the Secretary of Department of Homeland Security is 
breaking this thing called information sharing, which I would 
challenge, and we are actually doing work for the committee on 
this.
    It is really an interesting paradox. Information sharing 
versus information superiority and why organizations do not 
share is at the root cause of why information does not go 
across boundaries to help the common good.
    Mr. Ruppersberger. You are right. The need to know.
    But terrorism is a different arena. I mean, you are not 
talking about corruption. You are not talking about a Mafia--
well, al Qaeda in a worldwide type situation.
    But the other issue, too--and I want your opinion on this. 
It is not only gaining that information and sharing it, but it 
is the analysis.
    Mr. Decker. I would say that analysis is probably the most 
important--assuming that you have the right data access, part 
of the entire process of information handling, processing and 
dissemination.
    But here is a thought. Admiral Loy, when he was the 
Commandant of the Coast Guard, before he left, put out a paper 
which we have read and analyzed; and the Office of Naval 
Intelligence, in conjunction with the Coast Guard, is actually 
doing a test bed on this. It is called maritime domain 
awareness.
    I would suggest to you that Northern Command, one of the 
most important elements that they need, which they do not have, 
is this situational awareness of the Federal, State, local, and 
perhaps the private sector, but data coming in from government 
and nongovernment sources, which gives the command and his 
staff a sense of what is happening across the Nation in areas 
that perhaps might represent some threatening situations and at 
times key submissions from the intelligence and law enforcement 
community of known or heightened threat categories. Then from 
that quick analysis discerning what does it mean and doing some 
quick analysis, as compared to long-term analysis, which other 
parts of the government are going to be doing through the TTIC 
and the Homeland Security Department, the FBI's 
counterterrorism division and others.
    So if I were, you know, General Eberhardt, I would 
recommend looking at information, situational awareness as 
being one of those fundamental enablers that he will use to 
make better decisions that then can support real world as well 
as exercise scenarios.
    Mr. Ruppersberger. Thank you.
    Mr. Turner. General Reimer, one of the things that I 
appreciate about your comments and your focus, specifically in 
raising the issue of Oklahoma, is that it really underscores 
your statements about homeland security being a process; and it 
is a process that we need to go through, regardless of issues 
of foreign threats, because they are the types of things that 
we ought to be doing anyway, because there will always be evil 
people. There will always be people that could be a threat. In 
looking at homeland security, there are some things that it 
would behoove us to undertake, regardless of whether or not we 
are currently under any specific threat from any foreign group.
    Recognizing that we won't always think of everything and 
that we won't always be able to prevent everything, I would 
love for each of you--and, General Reimer, I am going to start 
with you--if you would give us your thought of what you think 
is the No. 1 issue of concern to you. What is the No. 1 thing 
that is bugging you or in your craw that you know right now we 
are not doing well, or that should be done? What is the No. 1 
thing that is troubling you?
    General Reimer. Well, that is a very good question, Mr. 
Chairman. I guess it is a difficult part to say the No. 1 
thing. I am probably going to be a little bit all over the map 
sheet with my answer. But I think prior to September 11 the 
feeling of the average American was that terrorism is something 
that happens over there. We are protected by two big oceans and 
friendly borders with the north and south, and it is not going 
to affect us.
    As we get further away from September 11, I am not sure we 
are not slipping back into that same mode; and I think really 
what we have to do is to change the culture here in American 
society to understand that we are under threat and that we are 
very vulnerable. The vulnerability is based upon the thing that 
makes our country great, the freedoms and the liberties that we 
all enjoy. We are a very open society. We have to be. That is 
our way of life. That is our economic engine.
    So I guess the thing that I worry about most is how do we 
get the right balance between protecting the people of the 
United States and protecting the liberties and the rights that 
have made this country what it is today. If we go too far to 
one side, we are going to screw up the other, and it is not 
going to be the country that you and I love. So we have to make 
sure that we get that right.
    I think we have to adjust to the fact that terrorism is 
here. It is a long-term effect. It is not something that is 
going to be solved tomorrow, this year. It is going to take us 
a long time to eradicate terrorism. And I think eradication of 
terrorism is the right goal. We can't live with 50 percent, 
terrorism reduced by 50 percent, because it still affects the 
way of life. So I think we have to go at it and we have to stay 
for the long run.
    Mr. Turner. Thank you.
    Mr. Decker.
    Mr. Decker. Sir, based on about 5 years of work that GAO 
has done--and a lot of it for this committee and for the House 
and Senate Armed Services and others--it is clear to me that 
perhaps the support to the first responder community, State and 
local level, is not happening the way that I probably would 
have thought it would play out after September 11.
    I remember testifying before this committee pre-September 
11 about the number of Federal agencies involved in combating 
terrorism. At that time, it was over 40. The budget was $13 
billion. And we were asking, you know, are we better prepared 
today than we were a year ago? And this is pre-September 11. 
And no one really could tell us on the Executive side if we 
were.
    Now I see a huge amount of funding going into combating 
terrorism, homeland security. And, again, I think there is 
concerns about some of the issues that were raised today: Are 
the State and local activities at the level of preparedness and 
with the commonality of command and control for incident 
response? Is the Nation, the populus aware of what their role 
and responsibility is should a smallpox Dark Winter scenario 
break out?
    I mean, I have heard Governor Ridge talk about everyone 
should have a little first aid kit prepared, set up, and a 
communication, you know, thing within the family and so on. 
What I haven't heard happen within the State level 
organizations, if Scenario A happens in Richmond, VA, what will 
happen as a result of that so that every person within a 50-
mile radius will know what their individual role and 
responsibility is and how do you do that responsibly?
    This is the part that is missing. I am waiting for message 
two--the public announcement that Governor Ridge makes to the 
Nation about how to get prepared. I need the next step.
    Mr. Turner. Thank you.
    Dr. Carafano. If I was a half-decent terrorist, I would 
realize by now that the only way I am going to get America's 
attention is to ratchet up the cost. And if I can't get a 
nuclear weapon, I can't get a deadly plague, so I would be 
thinking about what can I do to either inflict casualties or 
psychological damage. I would be looking at things--what I call 
weapons of mass destruction, in other words, combining 
different kinds of attack in one attack, like a critical 
infrastructure, and some other kind of things together, to kind 
of ratchet up, maybe doing some several of them simultaneously.
    I would look at using new weapons that haven't been used 
before like SHORAD weapons, MANPADS, RPG7s and things like 
that, looking at threats I could launch off covert maritime 
platforms like UAVs or even potentially someday underwater 
UAVs. I mean, things that we are not psychologically prepared 
for and things--and also critical infrastructure attacks, like 
going after chemical plants, things that can either get me a 
lot more casualties without having to have a nuke or a deadly 
virus or things that can get America's attention by attacking 
in some new way. So that is what I would be worried about.
    Mr. Wermuth. I would be hard pressed to state the No. 1 
problem, but I would suggest that a fundamental problem here is 
communications, not communications equipment, but the way we 
communicate and what we communicate, how we communicate among 
Federal agencies, how we communicate Federal to State to local 
and back up that chain and, most importantly, how we 
communicate about all of this with the American people.
    We are vulnerable. As Denny Reimer has noted, that is what 
makes us uniquely American. But we need to talk to the American 
people about those issues, that we can't protect them against 
everything, and talk as governments across the board about what 
we can and can't do.
    Denny Reimer used the term ``striking the appropriate 
balance.'' What is it we want to communicate to the American 
people about what they should be concerned about? You can go 
back and look at the anthrax attacks. We had done an abysmal 
job of talking to the American people before those attacks 
occurred about cause and effect. We really haven't done a good 
job of communicating the smallpox threat. All of that was based 
on a fear that we would cause panic in the American people if 
we did talk to them straightforwardly about what these threats 
are.
    Some of us believe that is not true, that the American 
people can take information and process it and understand it, 
and if we talked straight to the American people and suggest 
that we will never be able to defend against everything, even 
if we spent the entire wealth of the Nation trying to do that, 
we probably wouldn't do it.
    Look at the Israel example of how much effort and expense 
they have put into trying to defend, and it is just not 
perfect.
    We need to come to that realization, tell the American 
people that, tell them what we are doing to try to prevent, 
prepare, respond and recover across these four major areas, but 
suggest that we can't do everything. But we can do things 
better in coordination. We can do things better with the 
resources, and it is not--the answer is not always just money, 
it really is resources across a broad spectrum.
    But start to be straightforward about how we tell this 
story and not be reacting or responding to every time somebody 
has a fear about something that we go out and buy 350 million 
doses of the next vaccines.
    Mr. Turner. Thank you.
    Mr. Chairman.
    Mr. Shays. Thank you.
    First, Mr. Wermuth, I think I totally agree with you. I 
know I totally agree with you, that you tell the American 
people the truth and they will have you do the right thing. I 
learned that with the Patriot Act. Because all of a sudden 
there was real opposition to it. And I thought there wasn't a 
sense of why we needed to do it. When I was able to explain why 
we needed to do it, I think there was a recognition that there 
is logic then. We treat the American people like adults, we 
will get adult responses.
    I am having a hard time understanding how USNORTHCOM 
integrates with the Department of Homeland Security. I would 
like you all to tell me what your perception is of how that 
happens.
    Mr. Wermuth. Again, there is some significant background to 
that in my written testimony. But I would suggest to you that 
NORTHCOM, in the first instance, does not coordinate directly 
with the Department of Homeland Security. You had the person at 
the table today as the designated representative of the 
Secretary of Defense that really is first and foremost the 
connection with the Department of Defense to the Department of 
Homeland Security. That is Paul McHale in his new Assistant 
Secretary of Defense hat.
    As you get down into operational issues, certainly there 
will be some coordination and direct exchange of information 
and training and exercises and all of those other things. But 
if you look at how requests for military support to civil 
authorities flows, it is going to come from a locality up 
through a State to the Department of a Homeland Security, and 
then a request, not an order, comes over to the Department of 
Defense for the Secretary's consideration. And that will be 
evaluated against criteria that are reflected here in the 
written testimony and a determination made about what kind of 
support will be given. And then, through the normal process, 
those, you know, determinations would be made and orders go out 
the way they usually do through the mechanism of the joint 
staff to U.S. Northern Command for an execution of a mission.
    But the nexus really has to be the direct coordination 
between DHS and the Office of the Secretary of Defense, 
primarily in the hat of Paul McHale.
    Dr. Carafano. Congressman, I share your concern that--I am 
not sure what the answer to the question is. I do have some 
deep concerns. One is the area of training. There does need to 
be some kind of formal training relationship. Because what 
homeland security does in terms of multi-echelon training, 
NORTHCOM needs to be able to do in multi-echelon training. They 
need to be able to walk through that step by step.
    In a broader area, I think the research and development 
efforts need to be harmonized on a much greater scale and the 
joint experimentation efforts, not just in terms of NORTHCOM 
requirements but in many areas. For example, the Deepwater 
Program and the Navy's Littoral Combat Ship Program. Those 
development efforts ought to be hand in hand.
    So I think that is an issue that needs to be addressed. 
There needs to be some real synergy there, in a more formal way 
than there is now.
    The one recommendation I have is I think NORTHCOM ought to 
be deeply involved in the command and control of the military 
support to civilian authority mission. I think logic training 
there is that--not necessarily that NORTHCOM needs to do that. 
I mean, the Department of the Army has been doing it forever 
and doing it just fine. But I think the great advantage to 
having NORTHCOM being involved on a day-to-day basis would be--
is that on a day-to-day basis the people of NORTHCOM would work 
with the people that they--if something really big happened and 
they had to work with the DCOs and State and Federal people, 
that they would know those people. They talk to them every day.
    So if there was a way in which the kind of the day-to-day 
working relationship was there, that would serve them very well 
in a crisis thing. It wouldn't be the first time that they ever 
talked to the guy on the phone.
    So it would make a lot of sense to get NORTHCOM involved in 
the military support to civilian authority business on a day-
to-day basis, even though they are really there just to 
respond, you know, for the big one.
    General Reimer. The formal coordination has already been 
discussed on. It really occurs between the Department of 
Defense and the Department of Homeland Security; and Northern 
Command does not deal directly, at least in my understanding, 
with the Department of Homeland Security.
    They do participate in training exercises. For example, in 
the Top Off series of exercises that is run by the Office of 
Domestic Preparedness, NORTHCOM will have elements there as 
observers and get the benefit of that.
    I know many of the leaders in Northern Command. They are 
smart folks; and they will use informal coordination methods to 
keep track of large cities--New York City, Washington, DC. 
Those that they think are must vulnerable--and establish some 
informal coordination methods so if they are called upon to 
support them they won't be starting with a blank sheet of 
paper.
    I would hope that we can find a system, and I think it is 
easy to find such system, that would allow us to do a better 
coordination job than what I think is being done right now.
    Mr. Decker. Chairman, I think the briefing paper I have 
seen that the Northern Command uses, I thought was very useful. 
It divided the missions that they would respond to into three 
categories--I think it is in Mike's paper as well--
extraordinary, emergency and temporary.
    Temporary would be your civil support missions. You know, 
where they are helping with a forest fire perhaps or an 
inauguration. Forest fire maybe more into the emergency, and 
you are getting into maybe the support for counternarcotics 
missions. Then those really dramatic issues where you might 
have a maritime threat that is coming into a harbor, a missile 
perhaps, airplane, hostile aircraft would be in your 
extraordinary area.
    I think the command, my sense, would have to be--they would 
have to look at those different types of scenarios and come up 
with a scheme because--for coordination. Some things are not 
going to bubble up from the local, State level. They are going 
to come across the transom from the Federal or national level 
or even the international level, yet they have impact on State 
and local activities, and vice versa. There are going to be 
issues that come within our borders that come up to their 
awareness through the Department of Homeland Security and 
through all of those pipes that are coming into the command.
    Through exercises and training you can really refine the 
coordination process and the decision process that has to be 
almost second nature to deal with some of these situations.
    When Representative Murphy brought up the train scenario, 
Mike and I were just kibitzing a little bit earlier; and he 
said, well, you know, the Governor could call out the National 
Guard, have them drive out an M-1 tank and put it on the track.
    That might be a deterrent. It might stop that train if it 
is going into a built-up area and has a toxic cargo that could 
be very problematic.
    I mean, these types of situations, I would submit to you, 
should be thought through, so that you could come up with a 
solution maybe in 10 minutes, as compared to trying to contact 
the FBI and work through a bureaucratic, you know, tree of 
phone calls. So perhaps that is part of the challenge Northern 
Command would have, is thinking outside of the box when they 
think about the full array of capabilities that are inherent in 
this country yet still do not violate the laws and the 
Constitution.
    Mr. Turner. Mr. Ruppersberger.
    Mr. Ruppersberger. Keep talking communication. We have a 
situation that I think that works right now in law enforcement. 
That is the strike force concept and the concept where you 
have--there may be different disciplines. You have narcotics 
strike forces, you have organized crime, white collar crime 
strike forces, different disciplines that are work together. 
They develop relationships, and they develop trust.
    What is your opinion about that type of concept, about what 
we are talking about here? You know, a terrorism strike force? 
I like to call it hometown security, because that is what it is 
about--homeland, whatever, but hometown security. When you have 
the disciplines from the Federal, from NORTHCOM all of the way 
to the local level. So in the event that there is a crisis--and 
what we are talking about with terrorism is crisis, and how we 
are going to stop it, probably more than anything, is 
intelligence. And that is all part of the strike force concept, 
also.
    What is your opinion about that? That works. That has 
worked.
    General Reimer. I think that concept is a good concept, 
Congressman. I think in some States you have a Joint Terrorism 
Task Force. In many States I think you have a joint terrorism 
task force. I think the problem that you have--or the challenge 
that you have, anyway--is that you don't have a lot of extra 
policemen or extra firemen to put in that kind of joint task 
force. So if you take a cop off the beat and put him in there, 
you are paying a price somewhere else.
    I think it is a matter of resources. When something 
happens, you are going to require many more, and that is the 
fundamental training that I am also talking about, is that to 
handle a September 11 experience or Murrah Building bombing 
experience, it takes the whole police force, the whole fire 
force. It takes a lot of outside help. How do we bring them 
together as smoothly and efficiently as we possible can?
    But I think anything that you can do in terms of planning 
to work yourself through some of the tough issues that you have 
talked about this afternoon, I think that is something that we 
ought to be doing.
    Mr. Wermuth. We talked about it a while back, Congressman, 
in one of the earlier Gilmore Commission reports. But certainly 
the task force or strike force idea is a commendable one.
    I would offer to you as a model, within what is now being 
referred to as the Los Angeles operational area, that they do 
in fact have a group that really is primarily State and local, 
but it brings the Feds in as well, the representatives of the 
joint terrorism task force. It is a multi-jurisdictional entity 
that would form the basis for even launching operations, but 
they are a planning and a preparedness and a training and an 
exercise group that also can provide the basis for a command 
structure and actually be that strike force, if you will, if 
there is an event. It is a good model for the rest of the 
Nation, and Secretary Ridge visited it last week because he 
thought it was important enough to see what they were doing.
    Mr. Decker. Sir, let me approach your question just 
slightly different. That is, if you look at a spectrum of 
threats that are affecting or could potentially affect this 
country from a homeland security perspective, that should be 
the genesis of, one, your information fusion that has to 
happen; and that would be an all-source type fusion. When we 
were out at Northern Command last week, we got a brief from the 
J2, the intelligence office department; and they showed us a 
diagram, an unclassified diagram, in which they are taking 
information about--this is part of their mission, the 
counternarcotics role that JTF6 down in El Paso is doing and 
that piece.
    They are also looking at cyber when there is a lot of 
unusual activity that is affecting the country. They are 
looking at missile launches that may happen overseas that have 
impact here. They are looking at a wide range of threats. So 
that is going to be accepted universally, that if you are a 
Governor, you are a mayor, you are the President, you have to 
look at the totality of all of those things that could impact 
you.
    Now what I do see happening with these joint terrorism 
strike forces is that there is a preoccupation with 
criminality. They are focused on people that are breaking the 
law, narcotics people that are committing crimes that are maybe 
involving components of weapons of mass destruction, not 
terrorists. There are terrorists and others. There are cyber 
people that are doing pernicious things. In that group you 
should have your health expert who can perhaps see something 
that may have a biological element that is going to be 
important.
    And what about someone who understands chemical plants and 
those issues which you might have an improvised situation, 
where it could be either an accident or a man-made, but you 
have a detonation at a chemical facility, you don't care really 
who did it and how it happened initially, but you have to 
respond? I don't see that type of synergism happening across 
the government in all of the different areas and layers to then 
have a better response capability.
    Mr. Ruppersberger. Thank you.
    Mr. Turner. I don't have an additional question, but I did 
want to make a comment about something that Dr. Carafano said. 
You were talking about that once these agencies begin to 
communicate and have relationships with each other and a known, 
if you will, hierarchy as to how to address these issues that 
will also have an additional benefit.
    Well, Mr. Ruppersberger had indicated that he was a county 
administrator and that we had a mayor and a Governor who were 
also serving on this committee.
    I was the mayor for the city of Dayton, and we are one of 
the few cities that actually had weapons of mass destruction 
terrorist attack exercises prior to September 11. Attorney 
General John Ashcroft came where we did a mock exercise, as if 
a chemical attack had occurred at our basketball arena, 
shutting down portions of a major interstate, working together 
with the Federal agencies, the county, the State and the city, 
including representatives from Wright-Patterson Air Force Base, 
which obviously is a significant interest in the community.
    When September 11 happened, it was so important that we had 
those exercises because we didn't run around as a community 
saying to ourselves, who is in charge, or what agency should we 
get in touch with. People knew already who was at various 
agencies, who was in charge, who was going to be in charge of 
what activities, all of the way down to what streets were going 
to be closed, what buildings were going to be protected, so 
that emergency equipment knew what ways they could or could not 
go.
    It had a tremendous impact on our community, because it 
lowered the stress for everyone as they went about trying to 
think what types of responses that we would have to do, as they 
also went about the issue that the whole country faced, which 
was, what is next. People were able to go about their jobs. 
Wright-Patterson Air Force Base and all of the Federal and 
local agencies were coordinating.
    So, Dr. Carafano, I think you are obviously correct that 
getting people to work together on these topics, it is not just 
that they might know what they are facing more, but they will 
get to know each other and get to know how the agencies work 
together.
    Dr. Carafano. If I can just comment on that. I think the 
biggest bang for the buck--I mean, the real center of gravity 
to really making huge steps forward is integrated multi-echelon 
training, where local, State and Federal agencies train 
together; and it has to be a system which is relatively 
turnkey, in other words, that, you know, a mayor can walk out 
of his office, do this training and go back.
    It is not something that requires a long lead time, a lot 
of external stuff. It is something you can roll in, these guys 
can plug in, they can do this training. It is something that 
has to have a very robust lessons learned and best practices 
system, which just doesn't feed back into the communities but 
feeds into the research and development and the requirements 
process, both in--at the--in some respects with the community 
and State level but also at the Federal level, both through the 
homeland defense and the Defense Department, so we are buying 
the right things and we are fielding the right forces to meet 
the gaps that local and State communities have in providing 
national security to the people.
    So that is where I think the--I mean, if we learned any 
lessons from the training renaissance at the military--or the 
renaissance of military capabilities that we gained in the 
1980's, a lot of that was gained through a multi-echelon 
training system, that you not just trained these people but 
gave us insights into what our shortfalls were. In some cases, 
smart guys came up with patches to make it work in the short 
term; in some cases, some scientists went out and created the 
widget that solved the problem.
    That is why when we went to war in 1991 we were a much 
better Army than we were in 1980, because the lessons learned 
from that training system were plowed back in to make the 
military better to respond to the requirements that we foresaw 
down the road.
    Mr. Turner. Very good.
    Any other comments? Mr. Chairman.
    Mr. Shays. When I look back over the last 4 years one of 
the most valuable events and even committee hearings that we 
had was the tabletop done in Stratford, where we brought in 200 
people. I am absolutely convinced, and I think this committee 
is going to want to weigh in a bit more, that I think those 
tabletops are essential. I know they are not inexpensive, but 
you bring 200 people together and they figure out how to 
interact with each other.
    I guess the one area--I am not going to ask for an answer 
to the question, but I don't know how feasible it is for 
USNORTHCOM to be training with all of the different levels of 
government and all of the different States and all of the 
different communities, yet I know that they have to do it.
    I guess maybe the tabletop is one of the ways that they can 
at least know how they interact. But, you know, visualizing the 
Army fighting alongside the police to get into a building, I am 
just not sure is--you know, I just don't know. It is going to 
be interesting for us to try to sort that out.
    General Reimer. Can I comment on that?
    Because I think you are absolutely right. I think the 
tabletop is the best return on investment that we can get right 
now, and giving decisionmakers experience at going through some 
of these complex issues and knowing what is involved and the 
tradeoffs that are involved is invaluable. I think that they 
are relatively inexpensive compared to what we are going to put 
into this program. You can run one for less than $100,000, I 
think----
    Mr. Shays. I think the one in Connecticut was $25,000. It 
was tremendous.
    General Reimer. And we know how to do that.
    I think, as far as NORTHCOM is concerned, one of the things 
I would suggest that we look at and why I keep pushing the 
National Guard is because I think you can really run an 
advisory or coordination system, starting with Northern 
Command, through the two CANUSA armies, the Continental U.S. 
armies that still exist in the U.S. Army, one on the west, one 
on the east. Then they have tentacles down to all 50 States 
through the State area command which could then tie this whole 
program together where it is not all Northern Command 
supervising 50 States as such but you are using a chain of 
command that already exists.
    That is not entirely clean, because Northern Command does 
not have control over the National Guard unless they are in 
Title 10, so why I say we have to think anew. We have to think 
our way through some of that.
    There is also this issue of you have local first responders 
who are part of the National Guard units. But at the very 
minimum we ought to figure out how not to deploy first 
responders to Guard and air bases in Germany when we got a 
mission back here in the United States.
    So I think there is some fresh thinking that can be done. 
There is a little bit of restructuring that probably needs to 
be done. But I don't think it is a massive overhaul.
    The big issue is a policy issue. What is homeland defense? 
What does homeland security really mean? What is the role of 
the Department of Defense? That is the tough problem that you 
all and others in Washington are going to have to wrestle with. 
But that has got to be solved.
    Mr. Shays. Is there anyone in the audience still here from 
USNORTHCOM? Anyone?
    That is too bad.
    Mr. Decker. Mr. Chairman, can I make one comment on that? I 
think there is one issue that Northern Command could use to its 
benefit to help them on this outreach in doing tabletop 
exercises; technology.
    There are so many interactive capabilities now that with a 
module and with certain and very simple technology at these 
different States you could do tabletops focussed on command and 
control, the decisionmaking part, and replicate it every month 
across the Nation and do that with tremendous efficiency and 
cost savings.
    Kids are playing games in countries now, playing the same 
game in different countries at the same time, and I can't 
imagine that we as a Nation couldn't figure out how to do that 
with 50 States and a couple of territories in a way that would 
make sense.
    Mr. Shays. Let me ask you this. Right now, would it be more 
the responsibility of someone from USNORTHCOM to initiate the 
tabletop or someone from the Department of Homeland Security? 
Who should be taking the initiative?
    I am also beginning to think like we have two different 
groups and we have two--you don't have ownership.
    General Reimer. For the emergnecy responders, it is the 
Department of Homeland Security that has to initiate that; and 
Northern Command would be an observer.
    Mr. Shays. That makes sense.
    Thank you, Mr. Chairman. Appreciate it.
    Mr. Turner. We want to thank our panelists and ask if they 
have any additional comments or any responses that they want to 
provide to questions.
    Mr. Wermuth. I have one that might be a suggestion for next 
steps for your subcommittee. It was first recognized in the 
National Strategy for Homeland Security. It was legislated in 
the Homeland Security Act of 2002 by the Congress. It has now 
been directed, by virtue of Homeland Security Presidential 
Directive No. 5, the creation of a national response plan, in 
the execution piece of that, the National Incident Management 
System. The Department of Homeland Security has the 
responsibility to do that, to develop that plan and its related 
incident management system--national, not Federal like the old 
Federal response plan that FEMA had.
    It is going to be much broader. It needs to be all 
inclusive. It needs to address some of these issues like 
training and exercises and how all of that fits together and 
how the States and localities and the private sector and, yes, 
even perhaps the media and the American people have a role in 
all of that.
    That process is unfolding. But in just a few short weeks, 
perhaps a couple of months, there will be more clarity about 
what the national response plan looks like and what the 
framework is for the National Incident Management System.
    Mr. Shays. Could the chairman just--are you suggesting that 
maybe they are not working as quickly as they should or are you 
trying to make the committee aware that this is a work in 
process?
    Mr. Wermuth. I think they are working fast and furious to 
develop both of those pieces. So there is--but it would be--I 
would think it would be useful to this committee to bring 
representatives of the Department up here perhaps, if not in 
the summer certainly in the early fall, and get the full 
laydown on how that plan is and the national management 
incident system is unfolding.
    Mr. Shays. That is a helpful suggestion. Thank you.
    Mr. Turner. Any other comments from members of the panel? I 
want to thank you for participating in this and also thank 
Chairman Shays for his leadership on this topic. Thank you.
    We are adjourned.
    [Whereupon, at 3:40 p.m., the subcommittee was adjourned.]


</pre></body></html>
